<html>
<title> - SYRIA'S HUMANITARIAN CRISIS</title>
<body><pre>[Senate Hearing 113-134]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-134
 
                      SYRIA'S HUMANITARIAN CRISIS
=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 

                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
86-145                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien,  Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JOHN McCAIN, Arizona

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Guterres, Antonio, United Nations High Commissioner for Refugees, 
  United Nations, New York, NY...................................    31
    Prepared statement...........................................    34
Lindborg, Assistant Administrator for Democracy, Conflict, and 
  Humanitarian Assistance, U.S. Agency for International 
  Development, Washington, DC....................................    11
    Prepared statement...........................................    13
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    60
Malinowski, Tom, Washington director, Human Rights Watch, 
  Washington, DC.................................................    42
    Prepared statement...........................................    44
Richard, Hon. Anne C., Assistant Secretary of State for 
  Population, Refugees, and Migration, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    57
Risch, Hon. James E., U.S. Senator from Idaho, opening statement.     4
Singh, Michael, managing director, The Washington Institute, 
  Washington, DC.................................................    47
    Prepared statement...........................................    49

                                 (iii)




                      SYRIA'S HUMANITARIAN CRISIS

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey (chairman of the subcommittee) presiding.
    Present: Senators Casey, Boxer, Cardin, Risch, Johnson, and 
Corker.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    Thank you for being here. We are trying our best to start 
on time, and we are pretty close. But, thank you for taking the 
time to be here this morning.
    The Senate Foreign Relations Subcommittee on Near Eastern 
and South and Central Asian Affairs meets today to examine the 
United States response to Syria's deepening humanitarian crisis 
for both those living inside Syria and those who have sought 
refuge in the region.
    Two years ago, thousands of Syrians took to the streets, 
peacefully protesting the autocratic regime that had run their 
country as a police state for decades. Inspired by the events 
in Tunisia, Egypt, and Libya, these protesters met the full 
force of Bashar al-Assad's internal security services, and 
then, of course, the military. Since then, the conflict has 
escalated, driving more than 1 million refugees to neighboring 
countries. Some 2\1/2\ million are displaced within Syria. And, 
most tragically of all, more than 70,000 people have been 
killed in this conflict.
    When we quote these numbers and statistics, which seem to 
rise every day, we risk losing sight of the human face of this 
crisis. Today's hearing will focus on the men, women, and 
children who suffer daily, despite the courageous effort of aid 
providers, and who have little hope that this protracted 
conflict will end.
    Just a couple of examples. Men like Waleed, a 37-year-old 
doctor who fled Syria with his family, out of fear that, if he 
stayed, his children would grow up as orphans. Across the 
border, in Iraq, he works in the same refugee camp in which he 
lives, offering his skills to Doctors Without Borders.
    Or women like Ara, who gave birth to a son as shells from 
Assad's warplane fell around her home. The regime has targeted 
hospitals for airstrikes. Hospitals. So, without medical care 
or facilities, Ara depended on her neighbors and a local 
midwife. Amid the violence in northern Syria, she fled for 
Turkey as soon as her baby was healthy enough for the journey.
    Or young children, like Rami, who, at just 10 years old, 
walked 6 hours at night across the border into Lebanon, taking 
care to avoid the land mines that dotted the path along the 
way. Rami now shares one room with 11 family members, but has 
found a way to continue going to school.
    A recent report in the New York Times caused many to 
question why most of the U.N. assistance is delivered to 
regime-held territory. I applaud the efforts of our 
international partners who negotiate the very complicated 
Syrian landscape to deliver assistance to those who need it, 
without prejudice. Without a mandate from the U.N. Security 
Council or permission from the Assad regime, the United Nations 
cannot cross Syrian borders to deliver assistance without 
risking violation of international law.
    Despite these challenges, the international humanitarian 
assistance organizations are figuring out ways to get help to 
many of the 4 million Syrians who are in need of assistance. 
They have brought flour to Aleppo's bread bakeries, they have 
provided medical kits to clinics still operating in opposition 
territory, just by way of example. The United Nations has led 
at least three convoys of aid across the battle lines from 
Damascus to reach the Atme Camp in the embattled north. First, 
they must negotiate with Assad's government, then with the Free 
Syrian Army fighters, and all the while trying to avoid the 
Nusra Front terrorists.
    We face many challenges in navigating this complicated 
landscape, and I remain concerned that our assistance may not 
be getting to those who need it. The outlook for Syria's 
refugees is mixed, even when they reach Lebanon, Jordan, 
Turkey, Iraq, or even Egypt. These countries have done the 
right thing in keeping their borders open, even as thousands of 
refugees pour into their countries each and every night. 
According to the United Nations, about 78 percent of these 
refugees are women and children, likely because they are so 
vulnerable to exploitation if they remain in Syria.
    Just a couple of examples in different countries. Lebanon 
is now home to more than 300,000 registered refugees, the most 
of any neighboring country, especially given its size. This 
influx constitutes a 10-percent increase in Lebanon's 
population. That would be like adding more than 30 million 
people to our territory in the United States. These refugees do 
not rely upon camps. Instead, multiple families crowd into 
storefronts, garages, unfinished houses, basically anywhere 
they can find shelter.
    Second, in Jordan, many of the more than 300,000 refugees 
live in the sprawling Zaatari camp, where many international 
NGOs are active. At this camp, children can go to school and 
receive immunizations while families receive food assistance 
and shelter. Nonetheless, Jordan's infrastructure--its water 
and sewer systems, its health services, its schools--are not 
equipped to handle this kind of exodus. Many needs still go 
unmet in that country.
    Turkey, by way of a third example, is not only the nerve 
center of the opposition efforts, but it has also stepped up 
and spent more than $600 million to set up 17 refugee camps, 
with more that are planned.
    Iraq, also, is hosting more than 100,000 Syrian refugees, 
despite still dealing with more than 1 million Iraqis who are, 
in fact, still displaced. Some 40,000 have even traveled 
hundreds of miles, to Egypt, itself.
    Now, with our support, these refugees will one day return 
to a more democratic, representative Syria. Already, the people 
in free areas of the Aleppo government have elected local 
councils that are assisting with humanitarian aid distribution, 
also law and order and restoration of basic services.
    Yesterday, Syria's opposition elected Ghassan Hitto as the 
first Prime Minister of the interim government. A capable 
alternative to Assad present on Syrian soil would not only 
inspire confidence, but also give the United States and the 
international donor community an important partner in 
assistance delivery in the north.
    I just left a press briefing with Senator Rubio. He and I 
will be introducing legislation later today that will authorize 
additional humanitarian and refugee assistance, including seed 
funding for a reconstruction fund that will allow the Syrian 
people to rebuild after Assad. It will include providing vetted 
elements of the Free Syrian Army with essential nonlethal 
equipment and training. It will also encourage the 
administration to sanction entities that still do business with 
Assad's regime. We hope that this legislation will help the 
administration address a Syrian crisis that is fraught with 
challenges--political, military, and, of course, humanitarian.
    Today, we have gathered to focus on these humanitarian 
assistance and refugee challenges, so I look forward to hearing 
from our witnesses on the following key issues:
    No. 1, What is the United States doing, and what more 
should be done, to ensure that humanitarian assistance is 
getting to those who need it?
    Second, How can the United States and the United Nations 
improve coordination between and among donors and implementing 
partners?
    Third, What should the international community's priorities 
be for reconstruction and refugee return in the event of 
Assad's removal from power? And what steps should we be taking 
now to lay that foundation?
    We are fortunate today to have with us two witnesses who 
can speak about United States policy in Syria: The Honorable 
Anne Richard, Assistant Secretary of State for Population, 
Refugees, and Migration at the Department of State, and Nancy 
Lindborg, Assistant Administrator at the U.S. Agency for 
International Assistance, that we know as USAID. In addition to 
tremendous professional expertise in humanitarian refugee 
assistance, these women have traveled to the region, earlier 
this year, to examine the situation firsthand.
    We will then hear from His Excellency Antonio Guterres, the 
U.N. High Commissioner for Refugees, who will be appearing in 
front of this subcommittee as a courtesy, not as a witness to 
offer testimony, to share his perspective on Syria.
    On our third panel, we will have two individuals with great 
experience. Tom Malinowski, the Washington director of Human 
Rights Watch, will offer his insights into the conflict, having 
spent time in and around Syria talking directly with the 
victims. We are also joined today, on our second panel, by 
Michael Singh, of The Washington Institute for Near East 
Policy, who worked on Middle East policy issues at the National 
Security Council during the Bush administration.
    All of these witnesses have extensive experience and 
expertise in the region, and I look forward to their 
observations and thoughts on how we can tackle the tremendous 
humanitarian challenge before us.
    I thank you very much for being with us today.
    I now turn to our ranking member, Senator Risch, for any 
opening comments he would have.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Chairman Casey. I appreciate 
that.
    Today, we focus on a part of the world over which this 
subcommittee has interest; of course, the Middle East and North 
Africa, which are the focus of this committee. In particular, 
we are going to focus on the issue of the refugee problem. And 
that is the type of issue that Americans have always been 
deeply interested in.
    Unfortunately, today the finances of this country have 
deteriorated to the point that we cannot provide the kind of 
assistance that we used to provide in the past. Indeed, every 
dollar that we spend is borrowed from China and other places, 
and will have to be repaid by our children and our 
grandchildren, who will face their own types of challenges as 
they grow up.
    Nonetheless, the situation is there. The United States has 
always stepped up, being able to do what it can possibly do. 
And, as I said, today that is much more limited than what it 
has been in the past.
    As far as the specific country of Syria, we are interested 
in the complexity of the situation there. We know what the 
situation is today. I think the Chairman, and myself, met with 
representatives from Jordan and all the host countries that 
really are taking refugees today. And it is a serious 
situation, and they are doing the best that they can in dealing 
with it. Indeed, many of those countries are doing it only 
because of the financial aid from the United States. Again, 
with borrowed money.
    We all know that the situation today in Syria is very, very 
complex, and we, all of us, are interested in what a post-Assad 
scenario will look like in Syria. And, unfortunately, because 
you have about a dozen groups that are vying for position as a 
new government is formed, it is very difficult to make an 
assessment of what a post-Assad scenario will look like. I 
would be interested in hearing from members of the two panels 
as to what you can look forward to in the coming days, months, 
or years ahead, whatever it is. Obviously, the return of those 
who fled to other countries, will be greatly affected by what 
the new Syria will look like.
    With that, I want to thank you, Mr. Chairman. And, 
unfortunately, I can not stay; I have a home-State matter in 
Energy and Natural Resources, but I will be looking forward to 
reviewing the transcript and the testimony.
    Thank you.
    Senator Casey. Senator Risch, thank you very much.
    We will go from my right to left. We will start with 
Assistant Secretary of State for Population, Refugees, and 
Migration, Anne Richard.

STATEMENT OF HON. ANNE C. RICHARD, ASSISTANT SECRETARY OF STATE 
  FOR POPULATION, REFUGEES, AND MIGRATION, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Richard. Thank you very much, Senators. Thank you for 
holding this hearing, and for your attention to this important 
matter.
    Good morning, Chairman Casey, Ranking Member Risch, and 
other members. Thank you.
    Essentially, today we are commemorating the 2-year 
anniversary of the Syria uprising; it coincides with another 
dark milestone. Over 1 million refugees have fled Syria. More 
troubling, half of that number arrived in the last 2 months.
    I would like to share with you the approach the Bureau for 
Population, Refugees, and Migration is taking to address the 
crisis, and how that complements and reinforces what the U.S. 
Agency for International Development is doing. I shall briefly 
comment on how the refugee crisis is affecting the neighboring 
countries, and then the challenges we face in delivering 
humanitarian assistance to those in need throughout the region.
    In Jordan, approximately 30 percent of the 350,000 refugees 
live in the Zaatari refugee camp in northern Jordan. The the 
majority have been taken in or helped by relatives, friends, or 
even strangers. We are grateful that Jordan continues to allow 
Syrian refugees to cross its borders. We have asked them to 
ensure Palestinian and Iraqi refugees can also cross. And we 
recognize that its resources are stretched. We are in close, 
regular contact with the Government of Jordan about the crisis.
    Lebanon is hosting over 357,000 Syrian refugees, in 
addition to over 33,000 Palestinian refugees who have fled 
Syria. They live in host communities, allowing greater freedom 
of movement and possibilities for self-sufficiency. The 
presence of so many refugees in a country of 4 million people--
as the chairman said, 10 percent--the equivalent of 10 percent 
of the Lebanese population--taxes Lebanon's infrastructure and 
resources, and has increased tensions within the refugee 
hosting communities. Hezbollah's presence in southern Lebanon 
creates a challenge for those providing aid, while its 
involvement in the government complicates United States efforts 
to provide help. Despite these strains, the Government of 
Lebanon continues to keep its borders open, though its leaders 
warn that Lebanon has reached a saturation point.
    Over 110,000 Syrian refugees have fled to Iraq, most to 
Kurdistan. Domiz camp accommodates approximately 54,000, and 
two camps in Anbar province, at al-Qaim, accommodate over 
7,500. Others live in villages and communities.
    For some time, the Government of Iraq has kept the al-Qaim 
border crossing with Syria closed, except for medical 
emergencies and letting some of the elderly cross, and, more 
recently, has closed the Rabiya crossing. We have asked them to 
allow all refugees to cross.
    Since the beginning of the crisis, the Government of Turkey 
has addressed the humanitarian needs and shouldered most of the 
costs of the over 186,000 refugees registered in 17 camps set 
up by the government. There are another 71,000 registered, or 
soon to be registered, living outside of camps, and the 
Government of Turkey estimates that an additional 100,000 
refugees live in the area, in the cities of Turkey.
    We recognize the huge strain that the influx of refugees is 
currently placing on host countries. It is essential that 
neighboring countries continue to keep their borders open for 
those refugees fleeing violence in Syria. In every meeting with 
officials from these countries, we thank them for allowing 
refugees to cross, and discuss ways to help them uphold 
humanitarian principles while protecting their own security and 
preventing a spillover of violence.
    The Bureau of Population, Refugees, and Migration works 
closely with our colleagues at USAID, and together we lead the 
U.S. Government's humanitarian response. Nancy Lindborg and I 
have traveled often to the region. We have traveled together 
twice. And on our most recent trip, we were also joined by 
Ambassador Ford, in Turkey, prior to our participation at the 
January Kuwait Donor's Conference. Our communications teams are 
taking every opportunity to get the message out about the 
dimensions of the crisis and to highlight our government's 
leadership role in responding.
    The State Department is helping to get as much humanitarian 
aid as possible to Syria's conflict victims. We are providing 
funding to the United Nations, the International Committee of 
the Red Cross, and nongovernmental organizations, which all 
bring technical expertise and operational capacity to a crisis 
as large-scale as this.
    Of the nearly $385 million provided thus far, the State 
Department's contributions total nearly $185 million and meet 
basic humanitarian needs, such as shelter, water, and health, 
both inside Syria and in host countries.
    The delivery of assistance is often undertaken at great 
personal risk. In recent months, United Nations convoys have 
delivered aid to opposition-held areas in Syria, where 
thousands are in acute need of humanitarian help. Such 
movements are highly dangerous. I am glad we are joined today 
by the High Commissioner, Antonio Guterres, because he was 
personally involved in getting those first convoys through. He 
was on the phone constantly to ensure their safety and that 
they would be able to cross the battle line safely and get to 
the people in need. It was a remarkable example of daring by 
the High Commissioner of Refugees and his staff.
    Of course, people in need are not concentrated in one area, 
and can be found all around the shifting battle lines. 
Humanitarian organizations provide aid in a neutral and 
impartial manner. The United Nations is seeking to get access 
to all communities in need, on a regular basis. It is 
unacceptable, and a violation of humanitarian principles, for 
the Syrian regime to deny this access.
    I should also mention that the fighting has also endangered 
the lives of Palestinians and Iraqi refugees who lived, or live 
today, in Syria. They, too, are caught up in the crisis, and 
have been displaced or fled the country.
    On a serious matter, the international community is facing 
a resource crisis. The U.N.'s regional response plan has, thus 
far, received only 21 percent of the funds it needs to operate 
in the first half of calendar year 2013. Other donors must 
quickly provide the funds that agencies need to keep lifesaving 
operations going.
    Even if the Assad regime falls soon, humanitarian aid will 
likely continue. This is because of the widespread destruction 
of Syria's infrastructure and predicted flows of refugees that 
will continue to cross borders, likely in both directions. 
Needs could extend into the long term.
    Another issue of interest to this subcommittee: 
coordination of the international humanitarian response. This 
is complex and must occur on multiple levels, but it is 
occurring. The United States participates in Syria, 
humanitarian foreign meetings in Geneva that bring together 
senior officials from key donor governments, countries affected 
by the crisis, and U.N. leaders to coordinate our collective 
response.
    We are also deepening our coordination with the Syrian 
Opposition Coalition's Assistance Coordination Unit, as are 
U.N. agencies and other partners.
    To conclude, I want to tell you that we are doing our 
utmost to respond to this. It involves talking to other 
governments about doing more, about following through on their 
pledges. It involves traveling to the region. It involves 
talking to Syrian-Americans and other Syrian diaspora groups, 
about what can be done, exploring every avenue, trying to get 
access to very, very hard-to-reach places.
    I think the American taxpayer should feel good that we are 
taking great care with the resources to which we are entrusted 
to get aid in. And our intention is to save as many lives as 
possible.
    So, thank you for your attention this morning.
    [The prepared statement of Ms. Richard follows:]

       Prepared Statement of Assistant Secretary Anne C. Richard

                              introduction
    Good afternoon, Chairman Casey, Ranking Member Risch, and members 
of this committee. Thank you for hosting this hearing today on the 
humanitarian crisis inside Syria. I am pleased to be able to appear 
before the committee with my colleague, USAID Assistant Administrator 
Nancy Lindborg. Our offices work closely together to provide critical 
humanitarian aid to those affected by the violence in Syria.
    The 2-year anniversary of the Syria uprising coincides with another 
dark milestone: over 1 million refugees have now fled across Syria's 
borders into neighboring countries. More troubling news is that half of 
that number arrived in the last 2 months. The United Nations (U.N.) 
estimates that over 2.5 million people are displaced inside Syria and 
many more have been affected by the upheaval and fighting.
    I would like to share with you the approach my Bureau in the State 
Department is taking to address the crisis and how our efforts and 
USAID's work are complementary and mutually reinforcing. I shall first 
briefly comment on how the refugee crisis is affecting the neighboring 
countries, discuss the challenges we face in delivering humanitarian 
assistance to those in need throughout the region, and provide some 
specifics on the priorities of the Bureau for Population, Refugees, and 
Migration (PRM) and our diplomatic outreach to other countries.
                   refugees in neighboring countries
    Countries bordering Syria are approaching a dangerous saturation 
point with refugees. According to the United Nations High Commissioner 
for Refugees, in January of this year, 2,000 people fled Syria every 
day. In February, the number climbed to 5,000 a day; and in March, 
we've seen 8,000 people a day crossing from Syria into Jordan, Lebanon, 
Iraq, and Turkey. In addition to serving as evidence that life inside 
Syria has become extremely dangerous for many, the number and the rate 
are overwhelming the capacity of humanitarian aid organizations to meet 
the needs of these victims and are sorely testing the limits of host 
countries' abilities to provide safe shelter. If international borders 
are closed to Syrians seeking refuge, the awful tally of human 
destruction will only increase.
Jordan
    There are approximately 350,000 refugees in Jordan according to the 
U.N. High Commissioner for Refugees (UNHCR). Approximately 70 percent 
of refugees in Jordan live outside of the refugee camps in cities and 
towns. Many have been taken in or helped by relatives, friends, or even 
strangers. Only 30 percent live in the Zaatri refugee camp in northern 
Jordan. The Government of Jordan set up Zaatri in response to the large 
numbers of refugees crossing the border, and it has moved to set up 
another camp, as yet uninhabited, and initiated plans for another. 
Zaatri camp has been plagued by security problems and we have been in 
active conversations with the UNHCR and the Government of Jordan to 
improve the safety of refugees there as well as humanitarian workers.
    Jordan is allowing refugees to cross its borders but is finding 
that its resources are stretched to help massive flows of refugees 
while providing services to its own citizens at the same time. We 
should note that we are concerned by reports that some Palestinian and 
Iraqi refugees have been turned around at the border and we have asked 
the Government of Jordan to let them cross. We've thanked the 
Government of Jordan for its ongoing assistance to the refugee 
population, and asked them to keep their borders open to all refugees. 
Knowing the significant economic cost associated with hosting hundreds 
of thousands of refugees, the U.S. Government is providing Jordan with 
budget support.
Lebanon
    Lebanon is hosting over 354,000 Syrian refugees. Lebanon has also 
taken in 32,000 Palestinian refugees who have fled the violence in 
Syria. Syrian refugees in Lebanon live in host communities and are not 
in camps, which allows for greater freedom of movement, greater 
possibilities for self-sufficiency and a semblance of a normal life. At 
the same time, the presence of so many refugees in a country of 4 
million people taxes Lebanon's infrastructure and resources and has 
increased tensions within the refugee-hosting communities. Hezbollah's 
presence in southern Lebanon creates a challenge for U.N. agencies and 
nongovernmental organizations (NGO) in providing aid, while its 
involvement in the Government of Lebanon complicates U.S. efforts to 
provide help during this crisis. Despite these strains, the Government 
of Lebanon continues to keep its borders open, though its leaders have 
warned that Lebanon has reached its saturation point and requires 
significant international assistance in order to support the refugees.
Iraq
    Over 110,000 Syrian refugees have fled to Iraq, and most are now in 
Kurdistan. Domiz camp in Kurdistan accommodates approximately 54,000 
persons, and two camps in Anbar province at Al-Qaim accommodate over 
7,500 persons. In addition to those living in camps, there are many who 
live in villages and communities. In Kurdistan, Syrians are permitted 
to live and work in the community once they have registered.
    Since October 21, 2012, the Government of Iraq has kept the Al-Qaim 
border crossing with Syria closed, except for medical emergencies and 
some family reunification cases. Local authorities and the Iraqi 
Ministry of Migration and Displacement state that the border is closed 
for security reasons. Syrian refugees in Anbar prior to the closure of 
the border are restricted to the camps, although some have family 
members nearby. The main reasons for return to Syria continue to be 
lack of freedom of movement out of the camp and lack of a way to earn a 
living. UNHCR continues to provide support to those expressing interest 
in returning to Syria but is not encouraging repatriation because 
conditions are not conducive to a safe return.
Turkey
    Since the beginning of the crisis, the Government of Turkey has 
supported most of the humanitarian needs of the refugees from Syria who 
have crossed its border. In addition to 186,200 refugees registered in 
17 camps set up by the government and 71,000 registered (or soon to be 
registered) outside of camps, the Government of Turkey estimates that 
an additional 100,000 unregistered refugees live in urban areas. While 
the government has previously focused its support for Syrian refugees 
on the camp-based populations, it is now beginning to address the needs 
of the out-of-camp Syrians by setting up centers where urban refugees 
can register for IDs and free health services. Turkey has a strong 
economy but is experiencing a decline in its once vibrant cross-border 
trade with Syria.
                     challenges in crisis response
    The challenges before us are many. USAID Nancy Lindborg's testimony 
discusses access, security, and funding issues. Therefore, I will focus 
on: (1) the need to work with host governments to ensure that they keep 
their borders open to refugees and have what they need to help the 
refugees; (2) specific contributions made by the PRM Bureau; and (3) 
ensuring that other countries are contributing to humanitarian aspects 
of the crisis so that the U.N. and other humanitarian agencies have 
more of the support they need to respond.
                     working with host governments
    We recognize the huge strain that the influx of refugees is 
currently placing on countries that neighbor Syria. In both Jordan and 
Lebanon, government leaders are concerned about their capacity to 
absorb so many refugees. Iraq has expressed concerns that al-Qaeda and 
its Syria affiliate, al-Nusra Front, are sending fighters and weapons 
across the border. Turkey, for the most part, has maintained an open 
border policy for all refugees, although each day it limits the number 
of refugees allowed to cross at border crossings with high traffic. It 
is essential that neighboring countries continue to keep their borders 
open for those refugees fleeing violence in Syria. In every meeting 
with officials from these countries, we thank them for allowing 
refugees to cross and discuss ways to help them uphold humanitarian 
principles while safeguarding their own security so that they are 
protected from a spillover of violence.
    It is important that short-term relief programs link to longer term 
development aid as part of overall U.S. Government aid to the region. 
This is particularly the case in Jordan and Lebanon. We must leverage 
other aid and investments and incorporate refugees into the fabric of 
these countries, in order to minimize the costs that hosting refugees 
places on communities. This is an important area in which the State 
Department and USAID are working together.
                      department of state response
    The Department and USAID lead the U.S. Government's humanitarian 
response and we work closely together in response to the crisis. Nancy 
Lindborg and I have traveled together to the region twice and were also 
recently joined by Ambassador Ford in Turkey, prior to our 
participation at the Kuwait Donors Conference in January. Our 
communications teams are taking advantage of maximizing every 
opportunity to get the message out to domestic and international 
audiences about the dimensions of the crisis and to highlight our 
government's leadership role in responding.
    That said, allow me to outline the role the State Department has in 
helping to get as much humanitarian aid into Syria as possible through 
partners. Over several decades, PRM has developed a privileged 
relationship with the humanitarian agencies of the United Nations, the 
International Committee of the Red Cross, and nongovernmental 
organizations. These agencies are a key part of the international 
humanitarian system that is governed by humanitarian principles. They 
bring technical expertise and operational capacity to respond to this 
large-scale crisis. Of the nearly $385 million in humanitarian 
assistance that USAID and the State Department are providing in 
response to the Syria crisis, the State Department's contributions 
total nearly $185 million. Our contributions provide life-saving 
emergency assistance to meet basic humanitarian needs, such as shelter, 
water, sanitation, and health both inside Syria and in host countries.
    The delivery of assistance is often undertaken at great personal 
risk to those distributing the aid. For example, in the past couple of 
months, two UNHCR convoys and one U.N. interagency convoy have 
delivered aid into northwest Syria, where thousands of internally 
displaced people are in acute need of humanitarian help. The operations 
were carried out in collaboration with the Syrian Arab Red Crescent and 
the local community. Once the convoys moved across battle lines into 
areas controlled by the opposition, the missions were facilitated by 
the Syrian Opposition Coalition. Such operations are dangerous and 
difficult, which underscores the need for unhindered and safe access 
for those providing humanitarian assistance inside Syria. We will 
continue to encourage the U.N. to do more such cross-line assistance 
deliveries, counting on the Syrian Opposition Coalition to help 
coordinate and negotiate safe access. While these convoys are good, 
much more is needed to ensure supplies consistently and safely reach 
people in need.
    Of course, people in need are not concentrated in one area and 
instead can be found on both sides of shifting battle lines. 
Humanitarian organizations provide aid in a neutral and impartial 
manner. The United Nations is seeking to get access to all communities 
in need on a regular basis. It is unacceptable and a violation of 
humanitarian principles for the Syrian regime to deny this access.
    I should also mention the plight of the 525,000 Palestinian 
refugees who were living in Syria prior to the start of the conflict. 
They, too, have been caught up in the violence in Syria. Fighting has 
engulfed many Palestinian refugee camps and neighborhoods, including in 
Yarmouk, causing over half of Syria's Palestinian population to be 
displaced. For the most part, the Palestinian population has kept away 
from taking sides in the conflict. Those refugees who remain in camps 
are the poorest and most vulnerable. Some Palestinians have fled Syria, 
but most remain inside the country, having heard that they will be 
turned away at the borders with neighboring countries. The United 
States is the largest bilateral donor to the U.N. Relief and Works 
Agency for Palestine Refugees in the Near East (UNRWA), the U.N. agency 
responsible for assisting Palestinian refugees. There are also 
approximately 63,000 Iraqi refugees inside Syria. In recent months, 
many other Iraqis who were living as refugees in Syria have chosen to 
return to Iraq or flee for a second time to other countries.
                    contributions of other countries
    With no end in sight, we are facing a resource crisis. The U.N.'s 
Regional Response Plan to assist up to 1.1 million Syrian refugees in 
the region has thus far received only 21 percent of the funds it needs 
to operate for the first half of 2013 and, as of mid-March, refugee 
arrivals have already nearly reached June 2013 planning figures. 
Despite our own budget constraints, the United States continues to make 
every effort to continue to provide funding to meet the increasing 
needs. However, it is vital that other donors quickly honor the pledges 
they have made and provide the cash that agencies need to keep life-
saving operations going.
    Even if the Assad regime falls soon, displacement and the need for 
humanitarian aid will continue. This is because of the widespread 
destruction of Syria's infrastructure and predicted flows of refugees 
that would continue to cross borders--likely in both directions. If 
refugees are not able to return for years, host countries will need to 
continue to help host Syrian children in schools, and help families 
with medical facilities, and provide other public services.
    Using diplomatic channels, we are using every opportunity to ask 
other donors to follow through on the pledges they made at the Kuwait 
Donors Conference in January in order to raise the promised $1.5 
billion. The Secretary and other Department principals have reached out 
to other governments to ask them to do more for the Syrian people, 
including Syrian refugees. Funding is urgently needed if U.N. agencies 
and others are able to continue to operate.
    Coordination of the international humanitarian response is complex 
and must occur on multiple levels. The United States participates in 
meetings in Geneva of the Syria Humanitarian Forum that bring together 
senior officials from key donor governments, countries affected by the 
crisis and U.N. leaders to discuss the humanitarian aspects of the 
crisis, and to coordinate our collective response. We also actively 
participate in U.N. coordination meetings in the field. In addition, we 
are deepening our coordination with the Syrian Opposition Coalition's 
Assistance Coordination Unit. We have also encouraged U.N. agencies and 
other partners to do the same, and are pleased with the initial 
results.
    In conclusion, Mr. Chairman, I would like to say that my Bureau's 
primary concerns are providing protection to and aiding those who have 
fled the violence. The State Department's overall goal, of course, is a 
return of peace and stability to Syria and to one day see the refugees 
return home.
    I am grateful for the generosity of Congress and the American 
people who make our assistance possible, and for the excellent 
collaboration with the State Department's Near East and European 
Bureaus, and USAID colleagues. Thank you once again for the opportunity 
to highlight PRM's role and some of our concerns regarding the Syrian 
humanitarian crisis. I would be happy to answer any of your questions.

    Senator Casey. Thank you, Assistant Secretary Richard.
    And now we will hear from Assistant Administrator of USAID, 
Nancy Lindborg.

 STATEMENT OF HON. NANCY E. LINDBORG, ASSISTANT ADMINISTRATOR 
  FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Lindborg. Great, thank you, Chairman Casey, Ranking 
Member Risch, and members of the committee. Thank you very much 
for holding this hearing today and inviting us to speak. And 
thank you also for your continued support for our humanitarian 
programs, both in Syria and globally, where our assistance 
continues to save lives on a daily basis.
    And it is always a pleasure to be here with my good 
colleague, Assistant Secretary Anne Richard. We have worked 
very closely on this crisis, and, as Anne mentioned, have 
traveled together several times to the region.
    I have submitted my entire testimony for the record, but 
let me just focus on specifically how we are working inside 
Syria to provide assistance, and some of the challenges we are 
facing.
    You described, Chairman Casey, very eloquently, the grim 
statistics and some of the human stories behind that. It is 
important, I think, for us always to remember, behind those 
numbers are the Syrian families, women and children, as you 
identified, who have lost homes, livelihoods, and, all too 
frequently, their loved ones.
    The United States is fully committed to standing by and 
with the Syrian people. This is a message that Anne and I and 
others have brought consistently to the region as we speak to 
refugees and through social media and other ways to people 
inside Syria.
    Our aid has been a lifeline to more than 2.4 million people 
inside Syria since the conflict began, nearly 2 years ago. And 
of the $385 million in humanitarian assistance that we have 
provided to date, $216 million of that is going inside Syria. 
It has reached all 14 governates, and about 60 percent of that 
aid is reaching opposition and contested areas. We know it is 
not enough, but we are working to ensure that it reaches as 
broad a swath of those in need. It is being put to work on the 
ground every day in some of the areas affected by the worst 
violence, including Idlib, Aleppo, and Daraa. And we know that 
the needs continue to grow. And that is why, as the situation 
worsens, it is more important than ever for all nations to step 
forward with help, and to turn pledges into lifesaving aid.
    Our approach is to work through all the possible channels 
to deliver assistance. We are working through the United 
Nations, through international organizations, nongovernmental 
organizations, local Syrian groups and networks, to ensure that 
we can reach as many people as possible. We coordinate closely 
with the Syrian Opposition Council's Assistance Coordination 
Unit, which has assumed an increasingly vital role in its 
efforts to help ensure that we reach Syrians, especially in 
opposition-held and contested areas. We have a full-time person 
working with them, as does the United Nations. And the 
Assistance Coordination Unit has moved quickly since its 
formation, just a few months ago. It does, however, remain a 
very nascent institution, and we continue to provide support so 
they can better leverage and coordinate international 
assistance throughout Syria.
    To meet their most urgent needs, we have prioritized food, 
basic medical and trauma care, and relief supplies. Through the 
winter, we pushed hard to provide warm blankets, winter 
clothes, plastic sheeting, and mattresses for more than a 
million Syrians who had been forced from their home, often more 
than two or three times as families are moved as the conflict 
moves about.
    The United States is the largest donor for emergency food 
assistance, and we have, through the World Food Programme, 
supported activities that are reaching 1.5 million within Syria 
and approximately 300,000 refugees in neighboring countries, 
and this target is set to double in the months ahead.
    You mentioned, Senator Casey, the flour program, where U.S. 
flour is reaching 50 bakeries that are feeding 210,000 people 
in the northern governates of Aleppo.
    We are working, also, with partners, including a cadre of 
very brave Syrian physicians, to support health care, trauma 
care. We are supporting 144 hospitals, health clinics, and 
mobile medical units. We are also focused on those who are 
internally displaced. The numbers are staggering. More than 2.5 
million Syrians--and this may be a conservative number--have 
been forced to flee their homes and are still inside Syria. The 
majority are living with other families; families who are 
already stressed by the violence and the deteriorating system.
    So, we are working to support both the host communities as 
well as those makeshift camps, especially that have sprung up 
along the Turkish border.
    In the Olive Tree Camp, in Atmeh, for example, we have 
established 120 garbage collection points and trash removal 
services, repaired water pumps, and brought in water trucking 
and sewage pipes. These were completely unimproved sites, and 
so it is imperative that we move to help those.
    All of our programs are looking at the psychosocial impacts 
of this conflict. We have a generation that is now touched and 
traumatized by the conflict.
    Finally, as the warm weather becomes--as we move from 
winter into warm weather, we have a new set of challenges, and 
our focus will increasingly shift to clean water, sanitation, 
hygiene, so that we can prevent the potential onset of 
waterborne diseases.
    I want to quickly identify three key challenges.
    The first is access. The single greatest challenge to 
providing more and better humanitarian assistance is access. We 
urgently need to be able to, not just cross lines, as Anne has 
talked about, but to cross the borders to ensure that we are 
able to reach the most vulnerable groups of Syrians.
    Second is security. It is a constant concern. Humanitarian 
workers are targeted every day. We receive reports of 
kidnappings, targeting of clinics and of bakeries. Our top 
priority is to ensure that this aid can continue, and in a way 
that protects both recipients and the very courageous aid 
workers who provide it. For this reason, our assistance is 
often unbranded. However, we do share a sense of urgency in 
letting the people of Syria know that we are providing help and 
standing with them, so we are looking at all the ways in which 
we can get that message through: selective branding, where we 
can, as well as with messaging, visits to the region, media, 
working with the diaspora.
    Finally, resources. On the 30th of January, the Emir of 
Kuwait hosted an international pledging conference at a very 
critical moment both for raising awareness and funds for the 
U.N. appeal. Unfortunately, only 21 percent of those funds have 
come through. So, as the humanitarian worst-case scenario 
becomes the current scenario, we need all countries to 
contribute. Our diplomats are, globally, urging all countries 
to follow through on the generous commitments they made in 
Kuwait, and we urge you to help us on that mission.
    Finally, without our continued full-fledged humanitarian 
response, the Syrian people may not have the opportunity to 
achieve their democratic aspirations that began 2 years ago. We 
know humanitarian aid is not the answer, but, without it, we 
would see an even worse spiraling of the crisis.
    Thank you for your support and happy to take any questions.
    [The prepared statement of Ms. Lindborg follows:]

 Prepared Statement of USAID Assistant Administrator Nancy E. Lindborg

    Chairman Casey, Ranking Member Risch, members of the committee, 
thank you for inviting me to speak with you today. I appreciate the 
opportunity to talk with you about the U.S. response to Syria's 
humanitarian crisis and the great challenges we face. Thank you also 
for your continued support for our humanitarian programs around the 
world, which are making a positive difference every day for millions of 
people.
                              introduction
    We are facing a grim and escalating humanitarian crisis in Syria. 
The statistics are numbing: more than 70,000 dead; more than 4 million 
people inside the country in need of assistance, including over 2.5 
million displaced from their homes. We have already surpassed the 
somber milestone of more than a million refugees who have fled to the 
relative safety of neighboring countries, with greater numbers of 
refugees fleeing the violence each day.
    And behind these statistics are the stories of individual Syrians 
who have lost their homes, their livelihoods and all too often their 
loved ones. I had a sobering visit to the camps in Turkey and Jordan a 
month ago with Assistant Secretary Anne Richard and Ambassador Robert 
Ford. We stood at the border late one night as thousands of Syrians 
walked across into Jordan, including one young woman who was 6 months 
pregnant and fearful she would lose her child.
    The United States is fully committed to standing with and 
supporting the Syrian people. The United States has provided nearly 
$385 million in humanitarian aid to date, $215 million of which is 
helping those in need inside Syria. And I want to be clear: our funding 
is not just a pledge; it is being put to work on the ground every day, 
in some of the areas affected by the worst violence, including Idlib, 
Aleppo, and Dar'a.
    We know that the humanitarian needs are growing; we know our 
humanitarian assistance will not end the bloodshed. Without a political 
solution, no amount of aid will turn the tide. At the same time, we 
also know our assistance has provided a lifeline to help over 2.4 
million people in Syria since the violence began 2 years ago. And our 
continued, full-throttle humanitarian response is saving lives and is 
vital to mitigating the impact of an already desperate situation--for 
the Syrian people, neighboring countries, and the future of a region at 
the heart of U.S. national security interests.
                     the u.s. humanitarian response
    The United States has fully mobilized resources to provide 
humanitarian assistance in Syria, where we face the most complex, 
dangerous, and difficult crisis in the world today. Working in tandem 
with our colleagues from the Bureau of Population, Refugees, and 
Migration at the Department of State, USAID is working through all 
channels to enable our assistance to reach people throughout Syria. 
These channels include the United Nations (U.N.), international 
organizations, nongovernmental organizations, and local Syrian 
organizations and networks--and collectively thousands of dedicated and 
very courageous humanitarians who risk their lives daily to provide aid 
inside Syria, including the generous and brave Syrians who are 
sheltering family and helping those in their communities every day. Our 
assistance is currently reaching all of Syria's 14 governorates, and 
approximately 60 percent is reaching those in contested and opposition-
held areas.
    To help meet the most urgent needs, we have prioritized the 
provision of food aid, basic medical care, trauma care, and relief 
supplies. Throughout the winter, we pushed hard to provide warm 
blankets, winter clothes, plastic sheeting and mattresses for over 1 
million Syrians who have been forced from their homes, many displaced 
for the second or third time. Now, as winter becomes spring, warm 
weather brings a new set of challenges, and our focus will shift to 
providing clean water, improving sanitation and stepping up hygiene 
supplies and education to thwart the onset of waterborne disease.
Food
    The United States is the largest donor for emergency food 
assistance for those affected by conflict in Syria, including those who 
have fled to neighboring countries. World Food Programme (WFP) 
activities supported by USAID currently provide monthly rations to 
nearly 1.5 million within Syria and approximately 300,000 refugees in 
Jordan, Lebanon, Turkey, Iraq, and Egypt. WFP targets for these 
programs are set to increase in coming months to 2.5 million people 
inside Syria and 755,000 in neighboring countries. Moreover, USAID's 
emergency food assistance delivered through NGOs is providing a 
lifeline for vulnerable Syrians in areas where access is most 
constrained by the conflict.
    As civil war disrupts everyday life, the U.S. Government is seeking 
ways to address critical daily needs in the worst-affected areas. In 
Aleppo governorate, for example, USAID is providing enough flour to 
more than 50 bakeries to provide daily bread for 210,000 people. Some 
of these bakeries had been shuttered for nearly 3 weeks before this 
program began, and they are now able to operate. Syrian families in 
these areas have bread, and the bakery owners and workers are once 
again earning income.
Medical Support
    Working through partners, including a cadre of very brave Syrian 
physicians, we are supporting a lifeline of essential medical supplies 
and drugs, trauma training for doctors and support for hospitals and 
mobile clinics. This assistance is saving lives every day. We just 
heard a story in which one mother was on the street with her 2-year-old 
son when he was shot in the arm. She was able to rush him to a nearby 
clinic supported by USAID, where doctors treated him for 4 days, with a 
hopeful prognosis for full recovery.
    As the conflict has continued and the health care system 
deteriorates, we are seeing a shift from primarily helping those 
wounded by airstrikes or gunfire to also treating those suffering from 
more routine ailments. Right now in Syria, the United States is 
providing support for 144 hospitals, health clinics, and mobile medical 
units. This includes providing medical supplies and equipment, paying 
doctors' salaries, and training additional first responders and medical 
staff. Our medical teams have treated hundreds of thousands of 
patients, including 35,000 surgeries performed. In addition, we have 
trained nearly 1,000 people to provide much-needed emergency medical 
care.
Helping the Internally Displaced
    Many Syrians have lost their homes in the war, fleeing with little 
but the clothes on their backs to stay with host families or find 
refuge in schools or makeshift camps in Syria. The majority of those 
displaced inside Syria are living in Syrian host communities already 
stressed by the ongoing violence, pushing many of these communities 
into a precarious situation. And many families have been displaced more 
than once, fleeing as the violence surges through different parts of 
the country.
    Throughout the winter, we provided blankets, heaters, and warm 
clothes to the displaced and to host families, and we are now providing 
clean water and improving sanitation, which is critical to preventing 
the spread of illness and disease. As makeshift camps have sprung up 
along the Turkish border, such as the Olive Tree Camp in Atmeh, near 
the Reyhanli border crossing in Turkey's Hatay province, we are 
responding with assistance to improve basic personal hygiene also 
essential to preventing disease. At Olive Tree, U.S. assistance has 
also established 120 garbage collection points and trash removal 
services, repaired the water pump, established water trucking, 
installed a pipe for sewage system, and constructed 140 latrines.
Protection and Psychosocial Support
    Each of our humanitarian programs also takes into account 
protection of the most vulnerable populations, including women, 
children, and the elderly. Our field hospitals are providing emergency 
care and emotional support for children, women, and men who have 
suffered sexual- and gender-based violence. The hours and days 
following rape are critical to treat injuries related to the assault, 
prevent infection, and receive the emotional support that will help 
survivors recover and resume a full life.
    After the brutality they have suffered and witnessed, children and 
adults alike need psychosocial support to help them through this 
crisis. From helping to form women's groups that encourage discussion 
to providing vital psychosocial support for children by providing a 
safe space for them to play and interact with their peers, we are 
helping to provide ways for Syrians to work through the trauma. With 
U.S. Government support, UNICEF continues to provide psychosocial 
support to more than 32,000 children in Damascus, Rif Damascus, Homs, 
and Aleppo governorates, including in conflict locations. In 2013, 
UNICEF aims to reach 300,000 children throughout the country.
Coordination
    In these complex crises, it is imperative to coordinate with other 
international partners to ensure we make the most of important 
humanitarian contributions. By working through the U.N.-led 
coordination effort for Syria, the humanitarian community can 
collectively identify, respond to, and meet immediate humanitarian 
needs without duplication. We continue to encourage our partners and 
other donors to participate in and support these coordination efforts 
for the strongest possible international response.
    The Syrian Opposition Coalition's (SOC) Assistance Coordination 
Unit (ACU) has assumed an increasingly vital role in coordinating 
efforts to reach Syrians, especially in opposition-held and contested 
areas. With support from the international community, the ACU 
coordinated a rapid needs assessment of northern Syria, which provided 
a more complete picture of needs, key affected populations, and 
priority sectors for assistance.
    The United States, the United Kingdom, and the U.N. Office for the 
Coordination of Humanitarian Affairs now have full time liaisons in 
Turkey to work with the ACU. USAID's Disaster Assistance Response Team 
(DART) in Turkey participates in the ACU's weekly humanitarian 
coordination meetings, where partner organizations and others from the 
international community share information about identified needs and 
map out current and planned assistance.
    The ACU has moved quickly since its formation in November to assume 
its current role. However, even with these heroic efforts, it remains a 
nascent institution that needs support. So we are continuing to help 
the ACU build its capacity to maximize its ability to coordinate and 
leverage international assistance inside Syria.
                             key challenges
    Despite the efforts of the USG and other international partners, 
Syria's humanitarian crisis is outpacing current response capacity, and 
we continue to face three significant hurdles that prevent us from 
reaching all those in need: lack of access, insecurity, and 
insufficient resources.
Access
    First, the single greatest factor limiting humanitarian aid is the 
lack of access. As I noted in my recent comments at the U.N.-hosted 
Syrian Humanitarian Forum, we urgently need greater access to forestall 
the growing humanitarian crisis, including greater access across 
borders in order to reach the most vulnerable groups of Syrians.
    In recent months, we have seen significant breakthroughs in the 
delivery of assistance across battle lines. Three U.N.-sponsored 
convoys of trucks recently reached displaced Syrians in the country's 
north. As a result of delicate negotiations with the Syrian Government 
and opposition factions, and with the critical partnership of the SOC, 
these cross-line operations have made a tangible impact and must 
continue. But they are logistically complicated and dangerous, 
underscoring the need for direct, cross-border delivery to meet 
communities not otherwise easily reached.
Security
    Second, with each operation, security is a constant concern, and 
humanitarian aid workers, particularly medical professionals, are 
continuing to be targeted for detainments and assassinations. This 
month, three USAID-funded medical clinics were bombarded in a single 
day, one of which was completely destroyed by mortar shells, which 
killed 10 people. Our top priority is providing life-saving aid, so we 
provide assistance in a way that protects both recipients and the 
courageous aid workers who provide it. Endangering the aid workers 
would mean undermining the humanitarian effort itself.
    For this reason, U.S. humanitarian assistance in Syria is currently 
provided without branding. We continue to work to find ways that we can 
selectively brand in order to safely inform the Syrian people that the 
United States cares deeply about their suffering and is responding as 
the leading donor and the largest, most proactive provider of 
humanitarian assistance.
    Meanwhile, we are amplifying our message of support to the Syrian 
people through official visits with intense regional media engagement, 
including the trip to the Syria-Jordan border I took earlier this year 
with Ambassador Ford and Assistant Secretary Richard; regularly 
engaging diaspora groups; and a governmentwide push to communicate 
directly to the Syrian people.
Resources
    Finally, to ensure needed resources, it is imperative that all 
countries help shoulder this burden. On January 30, the Emir of Kuwait 
hosted an international pledging conference at a critical moment for 
raising both awareness and funds for this crisis. Unfortunately, since 
then, only 21 percent of those pledges have been provided, and funds 
are running out. We urge all the countries who participated in the 
conference [?] to follow through on the generous commitments they made. 
Moreover, this appeal only extends through the end of June. As the 
humanitarian situation worsens by the day, we continue to focus on 
mobilizing increased international support.
                      conclusion: a pivotal moment
    Without our continued, full-fledged humanitarian response, the 
Syrian people may not have the opportunity to realize their democratic 
aspirations and see their struggle through. We must remain steadfast in 
our commitment to providing assistance for all those in need inside 
Syria. We must also continue to support the governments and people of 
Lebanon, Jordan, Turkey, Iraq, Egypt and other nations who are so 
generously hosting refugees fleeing Syria to help ensure these nations 
can maintain open borders.
    Thank you for your time today and for your continued support for 
our efforts in Syria.
    I am happy to take your questions.

    Senator Casey. Thanks very much.
    I will start. And I want to start with you, Assistant 
Administrator Lindborg, regarding one of the points you made 
toward the end of your testimony. Other than the frustration 
that we have not made nearly enough progress on this--what can 
only be described as a tragedy--second only to that frustration 
is the frustration that sometimes even when we are doing a lot, 
like $385 million of support, folks do not know it or do not 
have a sense that it is the American people providing that aid. 
And I know you talked about that branding question. And we 
speak to it in our legislation we are introducing today. But, 
walk us through that, in terms of where you see that issue 
going, in terms of a better strategy or approach to providing 
some measure of identification that indicates the support the 
American people are giving.
    I think people are very willing to provide the support, and 
pleased that we are providing it, but they also want to have a 
sense that--on the ground, that it is coming from our folks 
here at home.
    Ms. Lindborg. Thank you, Chairman Casey.
    You know, we are constantly balancing the priority of 
ensuring that aid reaches as many Syrians as possible 
throughout the country. It is the most complex, dangerous 
environment in which we are working, globally, right now, so we 
want to ensure that our humanitarian partners are not unduly 
targeted or that the communities receiving the aid are not 
unduly targeted, more than they already are.
    So, we are branding when and where we can, and we are 
looking, as well, at what is the broader communication 
strategy, and already aggressively pursuing contact through 
regular calls with the diaspora community here in the United 
States, visits to the region, where we do extensive media, both 
Arabic-language media--we are working through social media 
options to reach people inside Syria--all the ways in which we 
can get the message out that the American people are standing 
with the people of Syria, that we are there in their time of 
need and have provided extensive amounts of humanitarian aid.
    Also, by working with the Assistance Coordination Unit, 
weekly coordination meetings, sharing information on needs and 
what is going in, and where, so they know, very specifically, 
what we are doing, and further able to communicate that, as 
well.
    Senator Casey. I know we have had, in this instance, some 
nontraditional donors, such as Gulf States. If you can outline 
for us some of the efforts you are undertaking to encourage new 
donors. I realize sometimes being a donor isn't enough. It is 
one thing to make a pledge, it is another thing to deliver on 
it. That is still, I know, a problem. But, just if you can 
outline the efforts that have been undertaken to encourage new 
donors to the joint U.N. coordinating and reporting structures.
    Ms. Lindborg. We have done extensive outreach to new 
donors, both to encourage them to help shoulder the burden, to 
turn their very generous pledges at Kuwait into programs on the 
ground. We are also working with them to encourage them to be a 
part of the coordination structure through OCHA, the Office for 
Coordination of Humanitarian Affairs, which is a U.N. entity, 
and also to join us in the coordination meetings that the SACC 
Assistance Coordination Unit chairs in southern Turkey.
    We know that it is only by working together that we can 
ensure that you have made the most of the aid that is going in. 
We, about a year ago, signed a memorandum of understanding with 
the Organization for Islamic Cooperation, the OIC, which is 
part of an ongoing drive to enable better coordination and 
understanding of how to work together to maximize the impact of 
our humanitarian assistance, especially as global needs rise 
and we need to maximize all of our resources.
    Senator Casey. I will come back later to ask a question 
about some of the mechanics of delivering the aid.
    But, Assistant Secretary Richard, I wanted to ask you about 
the border question. In my opening statement, I commended the 
effort undertaken by neighboring countries to leave their 
borders open. And obviously, the numbers of refugees they have 
taken in is really extraordinary and should be commended. There 
is a concern, though, that some of that will begin to break 
down, in terms of the borders, a concern about Iraq may be 
limiting the inflow. I am just wondering if you can tell us 
what efforts the State Department has undertaken to encourage 
countries to keep those borders open, as best they can.
    Ms. Richard. As we mentioned, we have been traveling to the 
region quite a bit, and we also receive visitors from those 
countries here in Washington, and have talked to people at the 
embassies, as well. And so, in every conversation, we ask them 
to keep their borders open.
    You specifically mentioned Iraq--the Iraqi National 
Security 
Advisor was here in town recently, and I went with Ambassador 
Robert Ford, specifically, for the purpose of talking to him 
about that piece, about the problems with the border crossings. 
There are fewer refugees seeking to get into Iraq, but it is 
still an important point. And so, we continue to make that 
point.
    It helps, I think, that at the same time that we are asking 
them to keep their borders open, that we are also offering 
help. And, in some cases, such as with the Jordanians, that is 
direct financial help, and, in other cases, it is to remind 
them that most of the money going through the international 
organizations is coming from the United States, and encouraging 
them more closely with the United Nations and other 
international agencies.
    Senator Casey. Thanks very much.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And thank you both for your really well-laid-out testimony. 
I am new to the committee, and really kind of new to this 
issue, so there are just kind of some basic information that I 
know this may be kind of difficult for you to typify, but of 
the 70,000 casualties, is there any kind of breakdown, in terms 
of how many of those are opposition versus those individuals 
loyal to the Assad regime?
    Ms. Richard. I do not have a breakdown. Nancy just said she 
has not seen one, either.
    One of the concerns is that a lot of civilians, who are not 
necessarily combatants and were just minding their own business 
and pursuing their own lives, are being massacred by bombing 
from their own government. So, certainly, some are on one side, 
some are on the other, and some may have feelings for one side 
or the other, but are being caught up in a war and sacrificing 
their lives, when they are really just trying to go about their 
own business, or kids going to school, or people standing in 
line at a bakery.
    Senator Johnson. That would also be true, then, basically, 
of the refugees, also? They are just caught up in this thing, 
and they are not--you cannot really typify that half of them 
are loyal to the regime and half to the opposition?
    Ms. Richard. Well, most of the refugees are critical of the 
regime, and horrified to find themselves in the situation. When 
we were in Jordan, we went up to the border with Syria, at 
night, and we saw the refugees come across, and we met with 
them. And they were families--old folks, parents, kids, up way 
past their bedtimes, completely shocked by what was happening 
in their lives. You know, maybe they would have a suitcase with 
all the family's possessions. Suddenly, their homes have been 
destroyed, their friends or relatives have been killed. And so, 
they are not fleeing because they are afraid something bad 
might happen, they are fleeing because they have witnessed 
terrible things.
    Senator Johnson. Can either of you imagine a scenario in 
which this humanitarian crisis does not continue, does not 
escalate, where the Assad regime stays in power?
    Ms. Lindborg.
    Ms. Lindborg. I think that we imagined that there will be a 
significant need for humanitarian assistance for some time to 
come. As has been frequently talked about, there is great hopes 
that Assad will leave power soon, and we would still need to 
have humanitarian assistance in the aftermath of that 
departure.
    Senator Johnson. But, again, can you imagine any kind of 
winding down of this tragedy with Assad still in power? Or, he 
has to be replaced? He has got to go?
    I mean, Ms. Richard, you have an expression on your face, 
there.
    Ms. Richard. It is hard to imagine a peaceful outcome where 
Assad is still involved.
    Senator Johnson. So, if anything, that has got to be the 
goal of our policies. We need to make sure that Assad is gone.
    Ms. Richard. Well, I----
    Senator Johnson. I mean, you know, and just a--you know, 
peace talks, trying to reach some negotiated settlement is 
going to continue the humanitarian disaster?
    Ms. Richard. You know, we have traveled a lot with 
Ambassador Robert Ford, who is lead spokesman on the political 
piece of this; whereas, we are speaking about the humanitarian 
piece. So, he is seeking a negotiated outcome, a peaceful 
outcome. I have heard Toria Nuland--our colleague, Toria 
Nuland--many times, from the podium, you know, talk about our 
desire for the end of the Assad regime and some kind of a new 
government that involves all parts of the society, peacefully, 
stably, coming together.
    One of the problems is that, when this first started, a 
couple of years ago, there was hope that it could end quickly. 
The longer it goes on, the more extensive the damage inside the 
country, the more need there is going to be for reconstruction, 
the more horrors that have been visited on people. So, they 
have been traumatized, and they are going to need help getting 
their lives back together.
    Senator Johnson. OK, but, basically, just so I understand 
your testimony here, that a negotiated settlement that keeps 
Assad in power would be just--it will continue the humanitarian 
disaster. We will not find a solution to the problem if Assad 
stays.
    Ms. Richard. I am not authorized to talk about----
    Senator Johnson. OK, that is fine.
    Ms. Richard [continuing]. Whether Assad is in or out. But, 
the negotiated settlement is the desire that we are all seeking 
and that we are all pushing for.
    Senator Johnson. OK. No, obviously, this humanitarian 
effort costs a lot of money, and we have very severe budgetary 
problems. The figures I have is, our foreign aid is about $36 
billion a year. Is that already always purposed? Is that all 
that--as the year begins, do we know exactly where that is 
going? Is there any ability to shift funding from one area to 
another, based on priorities?
    Ms. Richard. We put together budget estimates, and request 
that from Congress. But, the budgets are put together so far in 
advance of the fiscal year--really, the spring of the year 
before you get the budget, is when estimates are being put 
together. So, last year's funding and this year's funding 
requests were put together before the crisis in Syria had 
erupted, and certainly before anyone thought it would reach 
this extent.
    And so, we are grateful to Congress for giving us some 
flexibility in using contingency funds to respond to the 
crisis. But, the mood, up here on Capitol Hill, to restrict 
funding, really charges us to be very, very careful in how we 
are spending our foreign aid dollars. And also, in my office--
both of our offices have global responsibilities, so we are 
trying to stretch our funding to respond, not just to Syria, 
which is a major crisis that we spend a lot of time focused on, 
but also to crises in the rest of the world, too.
    Senator Johnson. I know it is hard to prioritize this, but, 
I mean, how far up the priority list do you list Syria, in 
terms of the priority----
    Ms. Richard. I spend most of my time, now, on the Syria 
crisis.
    Senator Johnson. But, is that true of the entire State 
Department of this administration in terms of humanitarian 
foreign aid?
    Ms. Richard. Yes.
    Senator Johnson. So, this would be a top priority----
    Ms. Richard. You are talking to both of the----
    Senator Johnson [continuing]. Ms. Lindborg.
    Ms. Lindborg. Very----
    Ms. Richard [continuing]. Offices that work on humanitarian 
aid in the administration, and we are spending all our time on 
this. And we are trying to carve out time to not neglect other 
parts of the world, of course.
    Senator Johnson. OK.
    Ms. Lindborg, did you want to respond?
    Ms. Lindborg. Just to add that, without question, this is a 
significant top priority, and we are having to look at 
tradeoffs, globally, unfortunately.
    Senator Johnson. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Johnson.
    Senator Boxer.
    Senator Boxer. Thanks--thank you so much, Mr. Chairman.
    I want to thank Senator Risch, who has had to leave, for 
putting this together.
    I am going to start with a couple of budget remarks, then I 
am going to get to the issue of the condition of women and what 
is happening to women, and then, if I have time, get to the 
issue of children, which I know my chairman really cares about.
    We have spent almost half a billion dollars, according to 
my numbers, in this crisis, so far. And that includes $100 
million to Jordan to help with the refugees. And I hope the 
Syrian people know--because I am not so sure they know--how 
deeply we do care about them. Those caught in a terrible 
situation due to a dictator who is clinging to power. And, you 
know, this is not about the politics of it. You cannot talk 
about the politics of it. But, you know, I had a chance to meet 
with the Russian Ambassador and say, ``What are you doing? You 
have so much influence, here.'' And they are getting better, 
but there has to be a very clear international message that 
Assad has to go.
    And I heard Senator Kerry, who is now Secretary of State, 
today say that they understand the Europeans are going to give 
more military help to the opposition, and the United States has 
no objection.
    So, I think things are certainly moving to get this to an 
end, but, in the meantime, you are there, trying to help the 
people caught in the middle.
    Now, according to current figures, more than a million 
people in Syria are now living in neighboring countries. An 
estimated two-thirds of those refugees are women and children. 
And we know there have been commendable efforts by the 
international community, many of Syria's neighbors, We are very 
grateful. However, many of the women have already been victims 
of sexual assault.
    According to the Rescue Committee, Syrians identified rape 
as a primary reason why their families fled the country. Many 
women and girls relate accounts of being attacked, in public or 
in their homes, primarily by armed men. These rapes, sometimes 
by multiple perpetrators, often occur in front of family 
members. This is a quote from that committee.
    Sadly, the situation, at least for some women, is not 
improving--these are my words--even outside of Syria. And I 
want to tell you a story about one of these young girls.
    According to an Associated Press story, a girl's father 
married her off, for $1,000, to a Jordanian man. Her new 
husband promptly sent her to work in a brothel. Cheerfully 
acknowledging that he sells her for sex, he says, ``I've got 
nothing to lose,'' the husband reportedly said, smiling, ``I 
will eventually divorce her, and she'll end up going home.''
    Assistant Secretary Richard, can you speak to the situation 
of female refugees? What are we doing to help ensure that 
services are available for women who might have been victims of 
sexual assault?
    Ms. Richard. Thank you very much for your long-time 
attention----
    Senator Boxer. Thank you.
    Ms. Richard [continuing]. To this issue, and for leading 
all of us to pay more attention to violence against women and 
girls in these humanitarian situations.
    We are very concerned by reports of sexual- and gender-
based violence. I am an alumnae of the International Rescue 
Committee, so, even though I meet with them a little less these 
days, because I cannot show favorites, I am aware of the 
report, and have talked to staffers about that.
    We are working closely with aid agencies to beef up 
protection for vulnerable refugees, particularly women and 
girls. Our humanitarian funding helps support programs to 
protect the victims and educate the community about ways to 
prevent sexual- and gender-based violence.
    With your permission, I will quickly go through, maybe, 
some of the different countries where we are----
    Senator Boxer. No, I am just asking a pretty simple 
question. What are we doing, specifically, to help ensure that 
services are available for women who have been victims of 
sexual assault? Just that narrow point. I will have other 
questions I will introduce into the record, but----
    Ms. Richard. So, through our grant funding, we give funding 
to UNHCR to work in Jordan, Lebanon----
    Senator Boxer. Good.
    Ms. Richard [continuing]. And Iraq on this. In Turkey, we 
are working with the U.N. Population Fund. And then, in all of 
these places, we are funding nongovernmental organizations to 
do programs to respond to the needs of women and girls who have 
been victims, and also to prevent reoccurrence or any----
    Senator Boxer. Thank you. But, can I ask you, Would you be 
willing to send us some more information on this so we can 
follow up?
    Ms. Richard. Absolutely.
    [The information supplied by the State Department follows:]

    Senator Boxer. According to the rescue committee, Syrians 
identified rape as a primary reason why their families fled the 
country. Many women and girls relate accounts of being attacked in 
public or in their homes, primarily by armed men. These rapes, 
sometimes by multiple perpetrators, often occur in front of family 
members. This is the quote from that committee. Sadly, the situation, 
at least for some women, is not improving--these are my words--even 
outside of Syria.
    Assistant Secretary Richard, can you speak to the situation of 
female refugees? What are we doing to help ensure that services are 
available for women who might have been victims of sexual assault?
    Ms. Richard. We are very concerned by reports of gender-based 
violence (GBV) including sexual violence, and are working closely with 
humanitarian partners to strengthen protection for vulnerable refugees, 
particularly women and girls. Our humanitarian funding helps support 
programs to prevent and respond to GBV, including by providing 
assistance to GBV survivors and working with communities to prevent 
GBV. We are taking concrete steps to protect women from violence during 
conflict consistent with the National Action Plan on Women, Peace, and 
Security.
    The United Nations High Commissioner for Refugees (UNHCR), which 
has received over $111 million in U.S. Government funding for its 
response to the Syria crisis since 2012, provides GBV services and 
coordinates protection and GBV services provided by other U.N. agencies 
and implementing partners. UNHCR also works with host governments to 
develop capacity to help GBV survivors. The U.S. Government also 
supports NGO and international organization (IO) partners to complement 
UNHCR's programming and activities, providing an additional $4 million 
to programs throughout the region to address GBV prevention and 
treatment.
    The U.S. Government partners incorporate GBV education and support 
to survivors in their broader assistance programming including health, 
education, psychosocial, economic, and water, sanitation and hygiene 
assistance. Programs are designed to protect those most at risk and 
prevent violence.
    In Jordan, UNHCR works in partnership with the Family Protection 
Department (FPD), affiliated with the Jordanian Public Security 
Department (PSD), to strengthen its capacity to address GBV and provide 
psychosocial support services in the northern part of the country 
(Irbid, Ramtha, Mafraq and Zaatari camp). PRM supplements UNHCR's 
efforts by supporting a program through an NGO partner, which provides 
direct services for women and children in Ramtha, Mafraq, Irbid, and 
the Zaatari refugee camp. This project assists over 20,000 refugees 
through direct case management for survivors (including male and child 
survivors of GBV), individual therapy, group therapy, supplemental 
psychosocial activities, health services (including reproductive health 
and care for survivors of sexual assault), and referrals. Another U.S.-
funded NGO program is working to educate the refugee population on GBV 
and to build the capacity of health workers to better identify and 
respond to GBV cases they encounter.
    In Lebanon, UNHCR, UNICEF, and other agencies are identifying gaps 
in GBV programs, providing technical training to Ministry of Social 
Affairs workers in contact with GBV survivors, and expanding referrals 
for survivors to receive specialized services. Recognizing that 
refugees in Lebanon are not in camps and are geographically spread 
across the country, the United States is complementing UNHCR's efforts 
by funding a nongovernmental organization to map local agencies that 
specialize in assisting women and girl survivors of violence in the 
north and Bekaa valley and are conducting intensive GBV capacity 
development training for two clinics so they can appropriately receive 
and manage GBV cases. Syrian refugees also access gender-based violence 
services provided through a separate NGO program targeting primarily 
Iraqi refugees.
    In Turkey, the Turkish Government is the primary service provider 
to Syrian refugees through its Disaster and Emergency Planning Agency 
(AFAD) with UNHCR serving in an advisory capacity on camp services. The 
U.S. Government is funding the United Nations Population Fund (UNFPA) 
to support GBV prevention and response in refugee camps, as well as 
reproductive health services. We are also funding an NGO for primary 
health care, mental health, and psychosocial support in both urban and 
camp environments that includes medical treatment and counseling to GBV 
survivors.
    In Iraq, UNHCR is working with the refugee population to raise 
awareness of GBV and through its partners, is providing psycho-social 
counseling and legal support to survivors.
    In addition, the United States has provided funding to the United 
Nations Relief and Works Agency for Palestine Refugees in the Near East 
(UNRWA) to support both its humanitarian response to the Syrian 
conflict as well as the development of a gender-based violence referral 
system for Palestinian refugees, including those affected by the 
conflict. UNRWA is working to ensure GBV survivors have access to 
necessary support from UNRWA staff and external medical services and to 
increase community awareness of this issue. UNRWA has included 
Palestinian refugees from Syria that are displaced in Lebanon in its 
GBV programming and is currently developing a referral system for 
Palestinian refugees inside Syria, despite the operational challenges.
    We work with humanitarian agencies, tapping into their expertise, 
to determine the best way to deliver assistance in a culturally 
sensitive manner. For example, one NGO partner conducted assessments to 
inform its GBV programming. The assessments included not only female 
refugees but men and boys as well as service providers. The NGO noted 
that it was not easy to determine if participants were speaking about 
personal experiences, situations they witnessed, or stories they heard. 
As a result, the NGO concluded that GBV is prevalent in the Syrian 
crisis; the NGO is continuing to develop relationships and gather data 
to understand the scope of the problem. During the assessments, the 
refugees indicated that they preferred to obtain GBV-related services 
in a location that would not identify them as a survivor. For this 
reason, the NGO has incorporated GBV programming into medical service 
provision.
    We recognize that more remains to be done and remain committed to 
addressing this pressing humanitarian need.

    Senator Boxer. Now, I imagine you both have seen a recent 
report by Save the Children, entitled ``Childhood Under Fire,'' 
about the devastating impact the war in Syria is having on 
Syria's children. The report's findings are staggering.
    Today, within Syria, more than 2 million children are in 
need of assistance, suffering from trauma, malnutrition, and 
disease. Many are unable to attend school, and living in 
crowded and unsanitary conditions. One survey, conducted by 
Turkish researchers, found that three out of four children they 
interviewed had lost a loved one to fighting.
    Perhaps most chilling, children as young as 8--oh, this 
is--have been used as human shields and are increasingly being 
recruited as armed actors in the conflict.
    Can you speak to the situation of children in this 
conflict? What, if any, specialized services are the 
international community and host nations able to provide to 
children who are able to leave Syria?
    Ms. Lindborg. Thank you. And, you know, these are the 
horrors of war, absolutely. And again, thank you for your 
leadership and concern for this.
    I would just add, on the issue of violence against women, 
that, I mentioned in my testimony, we are supporting 144 
hospitals, clinics, and mobile clinics inside Syria, and we 
know that it is those hours immediately following a rape that 
it is most important to get help, so we have prioritized 
getting in rape kits, training the health care professionals on 
counseling, and looking at ways in which we can prevent 
infection and some of the health repercussions following a 
rape.
    The protection is difficult, which is--you know, you want 
to be able to stop the rapes. At this point, inside Syria, 
given the conflict, we are better able to do the treatment. And 
the goal, as we get to stabilize the situations, obviously, is 
to help to stop----
    Senator Boxer. Right. But, in the refugee camps, there 
ought to be a way to stop the assaults there----
    Ms. Richard. Right.
    Senator Boxer [continuing]. And ought to be a better way 
to--it has to be zero tolerance, period. And, I mean, look, I 
know how hard this is. We cannot stop it in our own military. I 
mean, this is an epidemic--let me make that point--that women 
are suffering mightily in this 21st century, and children are 
suffering. We have come so far, and yet we have so far to go. 
And it is hard to really talk about it.
    I met a gentleman who is from Syria. He is a very 
successful businessman. And, I mean--just has everything you 
can imagine in the world, and he would give it all up in a 
second if he could end this conflict. So, I think the whole 
point, I think, that Senator Johnson made, is that, you know, 
trying to get behind this to what is happening on the ground is 
absolutely essential. This has to end, because of these 
horrors.
    But, you are in a position to really tell the world what is 
happening. And I hope that you will get out there. That is why 
I am so grateful to Senators Casey and Risch, because, a lot of 
times--because we have a thousand issues--we have the budget 
issues now--clearly, it is hard. We have budget issues. We have 
given half a billion. I certainly want to do more, if it is 
spent wisely. We need to get--you know, we have philosophical 
arguments, here. I argue, you get back to the balanced approach 
of the Clinton years, we can do more and still balance the 
budget. Others say, no, that is not the way. And that is a 
different argument. But, meanwhile, this goes on.
    So, let me just change my question and end with this. Would 
you be willing, with your groups that are going to testify 
later and all the good people who are out there, to really 
bring this shameful situation forward? You are the ones that 
know. You are the ones who I know have cried on the ground. 
But, people have to understand it, because then I think 
players, like Russia, like China, others, will be compelled, in 
the court of just human feeling, to maybe do more to end this 
thing, and stop giving hope to this dictator, that he can stay 
there and eventually win.
    So, without getting you into politics, will you use your 
positions to do as much as you can to tell the truth about what 
is going on over there? I would ask both of you that.
    Ms. Richard. We will, and we are. And I have told my 
communications staff, and also the larger public affairs part 
of State Department, that if there is any request for media or 
media interviews, my answer is, ``Yes. So, don't even ask, just 
start to schedule.''
    And so, we do a lot of this together, because we want the 
U.S. Government speaking with one voice. And I was talking to 
CBS yesterday, and we also use all of the social media 
technologies so that we can talk, inside Syria, to people 
there, using Skype or using whatever technologies are out 
there. I am the mother of two teenagers that cannot believe mom 
is using all the latest Twitter feeds and Skype products. And I 
said, ``Whatever works, I want our voices out there. I want 
people to hear this.''
    Ms. Lindborg. Yes, I would just echo that we have, and we 
are. We are giving speeches, we are using the media. It is hard 
to truly capture the horror of going to the camps and being 
shown pictures, by a woman, of her dead children on her cell 
phone, in this very tragic twist on technology. This is a 
lifetime changed for children who have gone through this 
trauma, for the women who have suffered this brutality.
    There is, I think, enormous progress, globally, on bringing 
these issues to a new norm, that this is not OK, and yet, we 
have these conflicts, where this goes on. It is always the 
women and children who suffer the most.
    So, we are absolutely out there, telling the story as much 
as we can, and we thank you for your passion on this issue, 
because it is the face of war that often gets put underneath 
the statistics.
    Senator Boxer. Thank you.
    Senator Casey. Thank you, Senator Boxer.
    Senator Corker.
    Senator Corker. Thank you for having this hearing. And I 
will be very brief.
    And thank you for your testimony.
    In recent months, I have been at refugee camps both in 
Turkey and Jordan, and I know the need there is growing 
rampantly since that time. And obviously, we are reading 
reports of refugees and what they are attempting to do to find 
safety.
    I guess I would just ask you, more of a macrolevel--it 
seems to me that this could go on for some time, and there are 
lots of human needs that are not being met. And yet it seems, 
the day after Assad falls, which I think, you know, all here 
believe is going to happen, there is going to be a tremendous 
effort that is going to need to take place to keep extremism 
from being overly rampant and more than--I mean, we know it is 
going to be rampant, but to calm that, but also just to deal 
with the basic needs of a country that, basically, is not 
functioning and does not have the institutions at least in 
opposition-group hands today.
    Do you think we are doing enough, as a nation, to plan for 
the day after, to have the elements in place that are going to 
be necessary to keep this from bleeding over into other 
countries once Assad falls?
    Ms. Richard. I have been in the administration since April 
of last year, and, around the same time, there were different 
committees put together the day after Assad falls. And those 
committees have met, and have stayed together. So, I think that 
the administration is doing a good job anticipating that.
    What has been distressing is that that day is not here yet. 
And so, I also think the United States is doing a very good job 
in leading the humanitarian response that we are part of, and 
being the top donor to that.
    I think where there is not enough being done is, we do not 
have enough other countries joining us in putting money on the 
table and helping to be prepared to not just help the 
humanitarian response now, but also to be prepared for the 
reconstruction of the country.
    Maybe I could pass it to Nancy now, because I know she is 
also involved in talking to people about having Syrians ready 
to govern, having Syrians ready to lead on the inside.
    Ms. Lindborg. Thank you.
    I would just add that we cannot wait until the day after, 
and that a lot of the----
    Senator Corker. No, I am not suggesting that. I am 
suggesting maybe we are not doing enough now to plan for the 
day after and along the way.
    Ms. Lindborg. So, just to note that, in addition to the 
planning that has gone, there is already activities going 
forward. Secretary Kerry just announced a new package that 
augments what we have already done, which is expressly designed 
to move a transition process forward, to begin investments in 
some of the small infrastructure that is so essential for 
providing services to Syrian citizens in the areas that are 
more accessible.
    You are absolutely right, that is the question to be 
focused on, and plans and activities are both moving forward.
    Senator Corker. Let me ask you a question. We have a--you 
know, I know a vote took place yesterday, and the coalition has 
elected someone who spent three decades in Texas, which, you 
know, maybe makes you think that maybe we might have a degree 
of influence, in the event this person succeeds. But, I know 
many of the coalition members were hesitant to vote for a Prime 
Minister at this time, because, I mean, in many ways, this 
person is destined for failure; meaning that there are many 
things to overcome within the country, and, if this coalition 
is not seen as delivering the basic services and needs, it is 
something that Assad could certainly build upon.
    Are there things that we can do directly, right now, with 
this newly elected quasi-Prime Minister, to ensure that he and 
the group working with him are successful on the ground?
    Ms. Lindborg. We know, from past transitional and post-
conflict situations, that it is critical for new governing 
authorities to be able to gain that trust of their people, and 
accountability, by delivering essential services, which is 
exactly why this new package is designed to do that, to help 
the Syrian Opposition Coalition both gain greater capacity, but 
also, at the same time, deliver. We have been working with them 
to identify what some of their immediate priorities are, and 
are already moving forward. It is things like garbage trucks 
for collection of trash, it is youth programs, it is getting 
rubble out of some of the areas that have been destroyed, it is 
getting fuel in.
    So, this is separate from our humanitarian programs. It is 
through programs like the USAID Office of Transition 
Initiatives and the Middle East Partnership Initiative, that 
are expressly designed to address these kinds of transitional 
priorities.
    So, that is moving apace. They have also asked, for 
example, for 25 firefighters in Aleppo to be trained on search-
and-rescue techniques so that they are there and able to 
provide that essential service, in the event of additional 
attacks.
    We are very encouraged by what happened in Aleppo, with the 
recent elections at the local level, and understand that it is 
both a ground-up and a center-in that we need to be looking at 
as we support a transition.
    Senator Corker. And one last question. I apologize, I need 
to run to another hearing. But, you know, I have met with 
Syrian rebels in refugee camps along the Turkish border, and 
the mantra that you hear there is that, ``Look, you know, we 
can have all these civilian groups that you wish, drinking wine 
in other parts of the world as they act as if they're 
representing us, but us, the folks on the ground with the arms, 
are going to decide the future of Syria.'' Just like your take 
on that melding together over time with these efforts that you 
have underway.
    And, second, we are obviously not overtly involved, right 
now, in supplying arms. Other countries are. Secretary Kerry, 
yesterday, gave the green light for some European countries to 
go ahead and do the same. Do you think that our presence is 
being felt adequately on the ground so that we do have effect 
as we move down the road in helping shape the future of Syria?
    Ms. Richard. I can talk to the first part of that, about 
the melding together of the Syrian diaspora, maybe, and the 
Syrians who are doing the fighting, and maybe Nancy can pick 
up, then, on how our presence is being felt on the ground.
    I was speaking to a Syrian-American group over the weekend, 
and they are working so hard to raise money and get aid in, in 
a way that is just really noble. And a lot of them have 
relatives inside Syria, so I think that the ties are pretty 
strong.
    Of course, their experiences in recent weeks and months are 
quite divergent, when it is just so much safer here in the 
United States. There are some Syrian-Americans who are afraid 
of speaking out, for fear it will hurt their relatives, but 
their ties are quite strong, and communication is quite good.
    I also wanted to mention, the new Prime Minister, that you 
mentioned, Ghassan Hitto--Nancy and I had lunch with him in 
Turkey, in January, because he was so involved in the 
assistance efforts. And we have also received the Assistance 
Coordination Unit--the Syrian and coalition's Washington 
representative in our offices. So, we have very good 
communications with their top representatives.
    Senator Corker. I know that I have taken over the length of 
time allotted, but--is our presence on the ground being felt by 
those people who are going to determine the future of Syria? Do 
they know that we are providing this aid? Do they know that we 
are involved? Do they feel like that we are involved enough to 
help shape the future of Syria, once Assad falls?
    Ms. Lindborg. Let me just speak from the humanitarian 
perspective. And we know that our partners work every day at 
the local level with the emerging relief committees or the 
medical committees, you know, the kind of organization that 
happens at a local level. They know this assistance is coming 
from the United States. Our partners work with them every day 
to ensure that the assistance is getting out to all parts, 
including some of the hardest hit contested in opposition-held 
areas.
    We are also working very closely with the ACU, the 
Assistance Coordination Unit of the Syrian Opposition Council, 
to coordinate, on a regular, ongoing basis, to identify where 
are the needs and to ensure that the assistance is coordinated 
and they know what exactly is going out.
    So, the leadership at every level, without question, 
understands our commitment to provide humanitarian assistance.
    Senator Corker. Thank you for the time.
    I would suggest that you send a group up, in a classified 
setting, to walk us through how you see things unfolding, once 
Assad falls and what the plan is to ensure success by the 
coalition when that happens. I think that would be very helpful 
to us, and it might be a good disciplinary process for you all 
to make sure that you have actually done that in an appropriate 
way. I think that would be very helpful to all of us.
    Senator Casey. Thank you, Senator Corker.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I am going to follow up on Senator Corker and Senator 
Boxer's comments. The humanitarian crisis in Syria, as Senator 
Boxer was going through the tragedies to women and children, 
the number of deaths, now about 80,000; the number of people 
who have been victim of violence, we do not know the exact 
numbers; displaced people, several million; outside of Syria, 
now crossing a million. Assad needs to leave, but he also needs 
to be turned over to The Hague, because there are war crimes 
that have been committed. There is no question about that.
    And, in your response to Senator Corker, Secretary Richard, 
you indicated that other countries need to do more. And I could 
not agree with you more. But, I would point out that there is a 
perceived lack of decisive leadership by the United States--not 
necessarily as it relates to lethal aid, but as to the role the 
United States is playing in helping coordinate the opposition.
    I was in the region a couple of weeks ago, visited the 
refugee camp in Kilis, and I compliment the Turks; I think they 
are doing an excellent job in managing a very difficult 
circumstance, at mostly their own cost; and they are giving 
hope to the Syrians, giving a safe haven, and facilitating 
humanitarian assistance coming in through that border, which is 
under the control of the opposition. So, that was a positive 
sign.
    You have heard frustration, in this committee, as to how 
the United States, who is providing a great deal of assistance, 
how that aid is being perceived by the Syrian people. And that 
is a legitimate concern. I would point out, although the United 
States, I think, is giving the largest sum of humanitarian aid 
of any country there is a great deal more that needs to be 
done.
    The reason I said, originally, Secretary Richard, that 
``the perceived U.S.''--in my visit, in talking to the 
opposition forces, whether at the border or in Istanbul, there 
was a frustration that the United States has not been decisive 
in providing direction. The opposition is not well defined. The 
control of the country by the opposition is different sectors 
in different parts of the country, so there is not the uniform 
network that makes it easier for us to provide assistance.
    So, on the humanitarian side, we have to rely on 
international organizations, NGOs. And I guess my question is, 
What assurances can you give to us that the funds and moneys 
that are being provided by the American taxpayers are 
furthering the U.S. interests? And that, primarily, is 
humanitarian. So, is it getting to the right people? But also 
providing, we hope, stability in a more democratic society, 
with the United States brand helping achieve those objectives. 
So, how much confidence do we have that the international 
assistance that we contribute to is being distributed in the 
most efficient way and with U.S. objectives?
    Ms. Richard. Thank you, Senator. We have a great deal of 
confidence that the aid that we are providing to refugees in 
the countries surrounding Syria is being provided in a very 
efficient way by professionals and experts who know what they 
are doing. And we do not provide it if we have a sense that 
they do not know what they are doing. And we have seen a 
tremendous professionalization, over the last decade or so, of 
the people who provide aid. It is not a group of amateurs who 
just sort of roll up their sleeves and dig in, anymore. There 
is a lot of thinking and care that goes into this.
    Inside Syria, there is a very chaotic situation, and there 
is live fighting and violence going on throughout the country, 
and that makes it much more difficult to provide aid in an 
efficient way. And it is more of a challenge to try to get 
access, in any way we can. And our colleagues at USAID, our 
United Nations and international and NGO partners, are using as 
much brainpower as they can to figure out how to get access and 
how to get the aid to where it is needed.
    You talked about the frustration, among Syrians in the 
camps, but also on the inside, that the United States is not 
doing enough. I think that it can be attributed to several 
things, because we are doing everything we can to get the word 
out that we are leading in the response. But, some of these 
folks are cut off from that information. Some of the leaders 
are being very mischievous when they talk to journalists; they 
say, ``Oh, we don't see anything, we're not getting anything,'' 
because they are hopeful that that will then prompt more to 
come in. Some are really more frustrated about the United 
States not providing arms--and so, that is what they are 
talking about, as opposed to the U.S. humanitarian piece.
    So, some of those problems, we can do something about, and 
some we cannot. And so, we are trying to get the word out about 
the leading role the United States is playing, trying to get 
that out in Arabic, trying to get it into Syria. And then, 
Nancy and her folks have been trying to figure out how aid can 
be branded with the U.S. flag or, you know, somehow indicate 
that the United States has helped the opposition to get aid in.
    Ms. Lindborg. I would just add to that, Senator, that we 
have worked to use all possible channels to ensure aid is 
getting directly to those in need throughout all 14 governates 
and including a focus on areas that are hard to reach in the 
seven northern governates. And we are working with the United 
Nations, with NGOs, also with Syrian organizations, some very 
brave Syrian doctors----
    Senator Cardin. I appreciate everything you are saying, and 
I understand the challenges. And in some parts of Syria, there 
is not a network, and the NGOs cannot work in those areas 
safely, and they are not there, so it is hard to get aid to 
those people that are in a crisis. And I accept the fact that 
people have different agendas in the opposition, so what they 
say may not be totally ingenuous.
    But, I will point out, in talking with government 
officials, other governments in that region, there is a concern 
about U.S. leadership and what exactly the United States is 
prepared to do. Now, I think Secretary Kerry has clarified 
that, and his visit to the region, I think, helped a great 
deal. There is now additional resources that are being made 
available. I think the President's visit, this week, will also 
clarify U.S. intentions, and that we are strongly engaged and 
strongly committed to the removal of Assad as a leader in 
Syria, with a new regime coming into place. So, I think we are 
making progress in that.
    But, I must tell you, when so many of the stakeholders in 
that region see the United States as not adequately providing 
its direction and leadership, there is a problem there. And 
part of it is how we are perceived in that region as a result 
of it.
    So, I know the work that you are doing is extremely 
challenging. I know that we are playing a major role. I would 
just urge us to coordinate our game plan better than we have in 
the past, in order to get, not only the humanitarian aid out 
there, but also to provide for a smoother transition to a new 
government that will reflect the values that we hope that they 
will.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Cardin.
    I want to thank the Assistant Administrator and the 
Assistant Secretary. We have a lot more questions we will 
submit for the record.
    Let me, as well, as you leave, commend your public service. 
This is very difficult work, the complexity of which I am not 
sure I can understand or appreciate, and I am sure that is 
widely shared. But, we are grateful for your commitment.
    We will stay in touch with you, and we will leave the 
record open for members to submit questions. And we are just 
grateful for your time and your appearance here today.
    Thank you.
    Ms. Richard. Thank you so much for holding the hearing.
    Senator Casey. Thank you.
    Ms. Lindborg. Thank you very much. Appreciate your support.
    Senator Casey. Thank you.
    We will transition now, because we want to hear from His 
Excellency Antonio Guterres, who is the U.N. High Commissioner 
for Refugees. He is appearing as a courtesy, to provide us a 
briefing on the situation in Syria. And we are grateful for his 
presence. We know his time is limited, but we are honored that 
he is here, in his second term as High Commissioner and someone 
who has served Portugal as a Prime Minister, and a person of 
great experience, and someone who has dedicated, now, years to 
the good work that is done by the United Nations and in this 
capacity, as High Commissioner for Refugees.
    Your Excellency, we are grateful you are here, and we want 
to provide you as much time as you need to give us a briefing. 
And I know that some of us will have questions, and try to get 
you out of here at the appointed time.
    Thank you very much.

STATEMENT OF ANTONIO GUTERRES, UNITED NATIONS HIGH COMMISSIONER 
           FOR REFUGEES, UNITED NATIONS, NEW YORK, NY

    Mr. Guterres. Thank you very much, Mr. Chairman, 
distinguished members of the panel.
    I want to thank you, first of all, for this opportunity to 
brief the panel and to say I just came from the region, and the 
visit confirmed to me that this Syrian crisis is the most 
complex, the most dangerous, and with worst humanitarian 
consequences of all the conflicts I have seen since I started, 
8 years ago, in this post.
    The numbers are clear. Since yesterday, 1.15 million 
refugees in the countries around. And even according to a 
statement of a member of the government, now 3.6 million 
displaced inside the country. And it is not only the present 
situation, it is the staggering escalation we are witnessing. 
In April, we had only registered 33,000 refugees. In December 
last year, 500,000. Now more than the double. In December, 
every single day, 3,000 people crossed the border; in January, 
5,000; in February 8,000. In the last few weeks, there were 
days of 14,000 people fleeing Syria.
    And the response to this humanitarian catastrophic 
situation would not be possible without the generosity of the 
neighboring countries that have received all these Syrians and 
provided them with protection and assistance.
    All our advocacy has been centered in keeping the borders 
open. And I think that, largely, we were successful on that. 
There are some problems; and whenever there is a problem, we 
engage directly with the government and try to solve it as 
quickly as possible. But, more than the numbers, what I believe 
matters here are the refugees themselves, and the displaced 
people inside Syria, themselves. Each one of them is a human 
tragedy.
    Most of the people have left, having lost members of their 
family. Almost all of them have lost everything they possessed. 
When I visit these camps and I talk to people, there are two 
words that come to my mind. It is ``anger,'' but it is also the 
``trauma'' that I feel. Anger, first of all, with the 
international community, that they can see that has not been 
able to stop this conflict. And trauma--we have the risk of a 
generation that is emerging fully traumatized by violence. And 
let us not forget that more than three-fourths of the people 
are women and children; and let us not forget, in particular, 
that children are the majority, and one in each five refugees 
coming to Jordan is less than 4 years old. Visiting schools and 
looking at the drawings, all the drawings are planes bombarding 
villages or people being killed by other people.
    I was visiting a family in Zaatari camp, just last week, 
and there was a boy of 4 years old that was permanently 
shooting with a gun during all my visit. And, of course, I 
referred, to make sure that he would have the psycho-social 
support that he absolutely needs, because the level of trauma 
is, indeed, quite dramatic.
    And then, as it was said, there are harrowing reports of 
rape and sexual abuse to women and children in Syria. And, 
unfortunately, when coming to the exile, we have to struggle 
with situations of family violence, with situations of sexual 
violence, and we have families that push their young women or 
girls into early marriage or prostitution. We are trying to 
build, together with our partners and with the support of the 
authorities, what we hope will be a robust capacity to both 
prevent and to address the plight of the victims in these 
situations. But, these are, indeed, demonstrations, also, of 
the dramatic human tragedies that we are facing.
    Now, to respond to the situation, UNHCR has, now, about 
2,000 people on the ground, in 16 offices, and we have two 
essential missions. Outside the country, and in accordance with 
our mandate, we coordinate about 60 U.N. agencies--UNICEF, WFP, 
and a few others--and NGOs, together with the members of the 
Red Cross/Red Crescent family, and working very closely with 
governments in order to make sure that the adequate levels of 
protection and assistance are provided. In Turkey, as it was 
said, the government is, itself, dealing with most of the 
expenditure that corresponds to the situation, but, in Jordan, 
in Lebanon, in Kurdistan, we are very strongly involved, 
together with our partners, from shelter to different relief 
items, from food to water and sanitation, from education to 
health, all the basic needs of this population in such a 
traumatic environment.
    Inside Syria, we still keep our manned attenuation to about 
60,000 Iraqi refugees we are supporting and a few Palestinians 
that came from Iraq, all who deals with the traumatic situation 
of the Palestinian refugees in Syria, most of them already 
displaced inside the country, and some with problems in leaving 
the country. But, inside Iraq, we are also part of a broad 
humanitarian family--namely, within the U.N. framework--as one 
of the members of the team trying to assist the people 
displaced inside the country.
    And, indeed, one of the most challenging questions that we 
are facing relates to the support to the people displaced in 
areas that are not controlled by the government. That is why we 
pioneered two huge convoys into the northern part of the 
country, through cross-lines, as we are not allowed to do 
cross-border, and we are now pushing as much as possible for 
the whole U.N. country team to do successive operations of this 
type. But, let us also not forget--and I could witness that in 
Turkey--that more than 30 NGOs, or coalitions of NGOs, are 
doing cross-border support from Turkey. And what I believe it 
is very important is to make sure, based on the principle that 
everybody should be supported, wherever they are, whoever they 
are, whoever they support, whoever controls the territory where 
they are--what is needed is, in all these operations, to have, 
I would say, more support and better coordination. And that is 
why the Emergency Relief Coordinator, Valerie Amos, was in 
Turkey just after me, in order to try to push for these more 
effective efforts for the Syrian people inside the country, 
where the conditions are, I would say, worse than the 
conditions outside.
    If I may end my comments, what we are facing is a dramatic 
gap in resources. We were planning for 1.1 million refugees in 
June. We reached that in mid-March, but we are only funded by 
less than 30 percent. And I am talking about all the 
organizations of the refugee response plan that we coordinate. 
Sixty, as I mentioned.
    And it is impossible to go on. Many organizations will have 
to cease their activities, and we might need to restrict 
ourselves to core protection and to lifesaving for the most 
vulnerable, which, of course, would be a tragedy.
    I know how difficult the situation is around the world. We 
had the Kuwait Conference. It is not yet clear what will happen 
in its implementation. Until now, Kuwait has signaled that they 
want to channel their support through the multilateral 
organizations. In relation to the other gulf--donors from the 
gulf, I have a clear impression that very little, if any, money 
will be channeled through the multilateral system, and that 
they will use their usual channels that are bilateral, or 
through their own charities, mainly. And so, this will not the 
game changer we all hoped for. That is the reason why I am 
addressing Parliament. I have been in Parliament for 25 years, 
and I know how difficult it is to be in Parliament when funding 
is a problem, in general terms. But, that is why, in addressing 
Parliaments, I have been suggesting the possibility to consider 
that the Syrian situation, at such a dimension, such a scale, 
to be looked separately from normal humanitarian aid budgets, 
because, with normal humanitarian aid budgets that exist around 
the world with the traditional donors, I do not think there is 
a chance to face a challenge of this dimension. And if this 
challenge is faced, probably we will be, then, in a dramatic 
situation, trying also to confront the Sudanese or south 
Sudanese, the Congolese, the Afghans, and all the others that 
are suffering similar situations, but with much less impact in 
the global media than the Syria one.
    Having said so, I want to express my very deep appreciation 
to the fact that the United States has been our largest 
supporter, not only in relation to Syria, but to all our 
operations worldwide. And, without the United States, it would 
have been absolutely impossible to come to where we are. We 
would have to give up, long ago, and that would be a terrible 
tragedy. This is not only a humanitarian question; I do 
believe, looking at Lebanon, looking at the fragility of the 
Lebanese situation, more and more intensive fighting in the 
recent past; looking at Iraq, even the Prime Minister said that 
Iraq might have a civil war because of what happens in Syria; 
looking at Jordan, its extremely difficult economic situation; 
the fact the Israeli-Palestinian conflict is not solved, 
nearby; the fact that we have a very sensitive area, the gulf--
some call the Arabian Gulf, some call the Persian Gulf--and the 
Strait of Hormuz-- 
I think if this conflict is not stopped, there is a risk of 
spillover, and we could have an explosion in the Middle East 
that probably nobody would be able to cope with.
    And to support the victims is very important, because of 
them, first of all, but it is also a factor that can contribute 
to stabilize the situation, to the extent possible, outside the 
country, and hopefully to create the conditions for, one day, 
these people to be able to go back home and to fight, still, 
something inside Syria.
    Thank you very much.
    [The prepared statement of Mr. Guterres follows:]

                 Prepared Statement of Antonio Guterres

                              introduction
    Mr. Chairman and members of the committee, I would like to express 
my appreciation for the opportunity to appear before you today to offer 
my perspectives and concerns regarding the humanitarian situation of 
displaced Syrians.
    UNHCR currently has 3 offices inside Syria and 13 in the four 
neighboring countries that have been receiving the majority of Syrian 
refugees (Lebanon, Jordan, Turkey, and Iraq). There are over 2,000 
UNHCR staff working in these five countries. We lead and coordinate the 
response to the Syrian refugee situation in the host countries, working 
closely with the host governments and our U.N. and NGO partners. Of our 
partners, the two largest are the World Food Programme, which supplies 
food rations and vouchers to the refugees, and UNICEF, which provides 
child protection services, education, and water and sanitation.
    Inside Syria, UNHCR has been present since the early 1990s, 
initially to support Iraqi and other refugees which Syria has 
generously hosted for many years. Since mid-2011, when the crisis took 
a distinctly violent turn and started producing significant internal 
displacement, we have also been assisting persons uprooted inside the 
country with relief items and shelter assistance. We provide help 
wherever we are able to access people in need with a minimum of 
security. Unlike in refugee situations, there is no single agency with 
a mandate to protect internally displaced persons. Our assistance to 
Syrians who have fled inside their own country has therefore been part 
of a collective U.N. and NGO response effort led by the U.N. Emergency 
Relief Coordinator and OCHA.
    My comments today will focus on the humanitarian situation of 
displaced Syrians, both refugees in the neighboring countries and those 
uprooted inside Syria. I returned just a couple of days ago from a 
week-long trip to Turkey, Jordan, and Lebanon, where I met with 
refugees, government officials, host communities and staff of our 
partner organizations.
    Mr. Chairman, we are facing a tipping point in Syria. The 
humanitarian situation is dramatic beyond description. The refugee 
crisis has been accelerating since last summer, and has reached 
staggering proportions since the beginning of this year.
    In early April 2012, UNHCR had registered about 33,000 Syrian 
refugees in the region. By December, this number had grown to half a 
million. Now, 2 years after the conflict started, we have registered--
or given out registration appointments to--more than 1.1 million 
Syrians across the Middle East and North Africa. Daily arrival figures 
averaged 3,000 people in December, 5,000 in January, and 8,000 in 
February. In recent weeks, there were several days with as many as 
14,000 people crossing the borders into neighboring countries in the 
space of 24 hours.
    There are now nearly 360,000 registered Syrians in Lebanon, over 
350,000 in Jordan, some 260,000 in Turkey, and 115,000 in Iraq. Egypt 
has already registered over 40,000 and nearly 30,000 have fled to 
Europe. Many Syrians do not come forward for registration, either 
because they do not want to reveal their identity for fear of reprisals 
back home, or because they do not need assistance. So there are 
probably hundreds of thousands more in the region who are not part of 
the official statistics.
    It is important to note that while the most memorable media images 
are of the refugee camps, such as Zaatari camp in Jordan, more than 60 
percent of the Syrian refugees in the region actually live in urban 
areas, generously sheltered by host communities. These refugees are 
largely a hidden population, but their needs are also tremendous, and 
addressing them presents another set of difficult challenges.
    Back in December, when UNHCR drew up its Regional Response Plan 
together with some 55 U.N. and NGO partners (including five American 
NGOs), we expected to have 1.1 million registered Syrian refugees by 
June. But the situation has deteriorated so quickly in recent months 
that we reached this number already in mid-March. If no political 
solution to the conflict is found soon, the refugee number could double 
or even triple before the end of this year. In addition, the longer the 
fighting rages in Syria, the less will there be for refugees to return 
to after the conflict ends, meaning that many of them may not be able 
to go home immediately once peace is established.
    The refugee numbers are staggering, but they cannot convey the full 
extent of the tragedy. Most refugees have lost family members and 
everything they once owned--homes, businesses, and livelihoods. Three 
quarters of them are women and children, and in Jordan alone, nearly 
one in five refugees is under the age of 4. The children pay the 
hardest price of all, with millions of young lives shattered by this 
conflict, and the future generation of an entire country marked by 
violence and trauma for many years to come.
    There are harrowing reports of rape and sexual abuse of women and 
children by actors to the conflict inside Syria. In the neighboring 
countries, we see the level of trauma in those who manage to flee, and 
struggle to scale up the capacity to provide psychosocial support to 
the victims. Refugees are also at risk, as some are forced into early 
marriages or even prostitution, often as a result of their families' 
despair and lack of income frequently coupled with the need to provide 
money for relatives who remained behind in Syria.
    UNHCR and its U.N. and NGO partners are working closely with 
authorities, host communities and the refugees themselves, including 
religious leaders, to prevent sexual- and gender-based violence. In 
Jordan, for example, we are funding partner organizations that run 
women and youth centers in the Zaatari refugee camp, which provide 
awareness sessions and individual counseling. Several agencies working 
in the camp have protection staff manning hotlines and help-desks for 
victims of sexual violence, providing support and carrying out home 
visits. When necessary, victims' physical security is ensured through 
relocation, including to a government shelter in Amman, such as for 
early marriage victims of domestic violence. In addition, UNHCR has 
recently agreed with the government to fund a comprehensive programme 
to step up security in Zaatari camp.
    Across the region, we have initiated plans to expand assistance to 
survivors of violence and women at risk, for example through income 
generation projects so as to make them less vulnerable. However, these 
activities have not received sufficient funding so far.
    Mr. Chairman, the most tragic consequences of the crisis are being 
felt inside Syria itself. An estimated 3.6 million people are now 
displaced within their own country. They live with host families, in 
abandoned buildings and makeshift camps. Many of them are displaced 
over and over again as the fighting spreads. Some refugees in the 
neighboring countries told us they moved up to seven times within Syria 
before finally taking the decision to cross the border. As the 
devastation gets worse, ordinary people are finding it more difficult, 
and often even life-threatening, to access food, water, heating fuel, 
or medicines.
    In addition, we must not forget that there are half a million 
Palestinian refugees in Syria who are affected by the conflict. Some 
32,000 have already been compelled to flee abroad, mainly to Lebanon. A 
massive displacement of Palestinian refugees from Syria would have 
devastating consequences on efforts to preserve asylum space in the 
region. Strong support to UNRWA's efforts is essential, and I have 
repeatedly appealed to all parties to the conflict to respect and 
protect the Palestinian refugee population in Syria.
    As part of the interagency response inside Syria, UNHCR has focused 
on community services, shelter assistance, and providing relief items 
to internally displaced people. Just since the beginning of this year, 
we have distributed basic items such as tents, blankets, and plastic 
sheeting to nearly 430,000 displaced Syrians in various areas of the 
country. We have rehabilitated 39 collective shelters housing 
internally displaced Syrians and provided cash assistance to over 
19,000 extremely vulnerable families since the programme was launched 6 
months ago. UNHCR coordinates a collective protection response relying 
on the local knowledge and contacts of various community-based 
organizations. We regularly visit collective shelters and provide on-
the-job training for Syrian outreach volunteers who assist the 
displaced. Along with other specialized partners, we support a network 
of five community centers in key cities to provide emergency social 
services, child protection, and address grievances of victims of sexual 
violence. These centers provide psychosocial services, offer awareness 
sessions to help prevent sexual- and gender-based violence, and assist 
separated children.
    Together with its partners, UNHCR has delivered aid to people in 
both opposition- and government-controlled areas. We launched a pioneer 
relief operation in northern Syria in January, when two convoys led by 
UNHCR international staff carried more than 300 metric tons of tents 
and blankets to help vulnerable people displaced between Aleppo and the 
Turkish border. That paved the way for several interagency U.N. convoys 
across front lines. International NGOs have also been providing 
critical humanitarian support in these areas. U.N. agencies and the 
NGOs in Syria continue assisting displaced people wherever we can reach 
them, often in the face of very high security risks. In the past, 
convoys have been shot at, hijacked, warehouses destroyed and looted, 
and several U.N.-contracted truck drivers have been killed since the 
beginning of the conflict.
    Mr. Chairman, The violence in Syria and the massive refugee exodus 
it has caused are having a huge impact on the society, the economy and 
the security of the host countries, who are sharing their increasingly 
meager resources with the refugees. The economic cost of this is 
tremendous and leads to complex social consequences. Neighboring 
countries have been extremely generous and for the most part kept their 
borders open, but their capacity to continue to do so is under very 
severe pressure.
    Lebanon, the smallest of the host countries and yet the one that 
has received the largest number of refugees, has seen its population 
rise by a staggering 10 percent following the refugee influx. Refugees 
are spread out across 900 different municipalities, rendering the task 
of providing assistance extremely challenging. Apart from the obvious 
impact this has in a complex political situation, it has also put 
enormous pressure on available resources, in particular accommodation, 
health and education infrastructure. Authorities are growing 
increasingly concerned in the face of the unrelenting influx of 
Syrians. The conflict in Syria is becoming an existential threat to 
Lebanon, and strong international solidarity is required to support the 
country.
    Jordan is also facing a very difficult economic situation, 
aggravated by dwindling revenues from trade, tourism, and foreign 
investment due to the Syria crisis. The country has also had to agree 
on an adjustment policy with the International Monetary Fund. Its 
limited energy and water resources, social service infrastructure and 
public security forces are dramatically overstretched. Like Lebanon, 
Jordan also needs massive support to deal with the humanitarian tragedy 
caused by the conflict next door.
    Turkey's economic capacity is much stronger than those of other 
host countries, but the huge investments the country has made to assist 
Syrian refugees have taken a heavy toll and increased support from the 
international community is needed. The government has spent more than 
USD750 million to set up 17 camps and is planning to open three more 
during the coming months. It has now also started to register refugees 
in urban areas, and as the numbers continue to grow, authorities have 
asked for additional support to assist the urban population of Syrians.
    Iraq is still struggling with its own transition to stability, and 
what happens in Syria has a direct impact on rising sectarian tensions 
in the country. There are warnings of a potential civil war if the 
Syria conflict continues, and recent events at the Iraqi-Syrian border 
are extremely worrying. In addition, the Al-Qaim border crossing 
remains partially closed to Syrians since October, preventing refugees 
from seeking safety.
    International solidarity in support of the host countries must be 
urgently reinforced. This is not a question of generosity, but one of 
enlightened self-interest. By taking in thousands of new refugees every 
day, the countries on the front line of this crisis are doing the 
region and indeed, the world, an extraordinary service. Helping them 
deal with the consequences of the refugee crisis is imperative, as the 
preservation of their economic and social stability is in everyone's 
essential interest.
    UNHCR and its partners have been cooperating closely, including 
with governments in the neighboring countries, to ensure available 
resources are maximized in the humanitarian response to the Syrian 
crisis. Our Regional Response Plan is currently being reviewed in light 
of the accelerating outflows, and apart from including nearly 60 other 
agencies--both national and international--in it, we are also aligning 
the host governments' own appeals with ours. We have made efforts to 
coordinate with other donors and actors, mainly from the gulf 
countries, who have been providing very significant assistance to 
Syrian refugees. At the recent donor conference in Kuwait, I 
specifically encouraged nontraditional donors to ensure their aid is 
closely coordinated with the rest of the international response, to 
avoid duplication and ensure scarce resources are being targeted where 
they are most needed. We are currently waiting for feedback from the 
major donors of the region regarding their plans to disburse the 
substantial pledges they made at the Kuwait Conference 2 months ago.
    As the refugee numbers are growing, there is a widening gap between 
needs and the resources available to support Syrian victims. UNHCR and 
its partners have received less than 30 per cent of the funding we need 
to assist the current number of refugees, let alone those who are yet 
to come. There is no way a gap of this magnitude can be filled with 
existing humanitarian budgets. That is why I have been appealing to 
donor governments and Parliaments to urgently approve extraordinary 
funding for the victims of the Syria crisis, to ensure that their most 
basic needs can be met and the stability of the region preserved. All 
of the agencies involved in this humanitarian response are dramatically 
underfunded, with some fearing to run out of money as early as Easter. 
This would lead to an even worse disaster for vulnerable Syrians and 
those who have been sheltering them, and we cannot afford to run this 
risk.
    Mr. Chairman, 2 years into this terrible crisis, we need to be 
prepared for the situation to deteriorate further before it gets any 
better. If the worst-case scenario materializes, the international 
community will not only need to engage in an even more significant 
humanitarian response. It will also need to be prepared to deal with 
unpredictable consequences should the situation in Syria lead to an 
explosion in the Middle East.
    Combined with the real risk of this conflict spilling over across 
the region, as well as the challenges posed by other lingering crises 
nearby, what is happening in Syria today risks escalating very quickly 
into a disaster that could overwhelm the international response 
capacity political, security-related and humanitarian. This must not be 
allowed to happen.

    Senator Casey. Well, thanks very much, Your Excellency. We 
appreciate, not only the experience and hard work you are 
bringing to bear on these difficult issues, but the passion 
with which you approach them.
    I was struck by the statement you made earlier in your 
remarks about, ``Each one is a human tragedy,'' each person 
affected by the violence. I cannot even begin to imagine the 
horror that these families have lived through.
    And I also appreciate the expression of gratitude that you 
enunciated. We appreciate that, when our taxpayers, our 
citizens, support efforts like this, that you express that 
gratitude.
    Speaking for myself, I think there is even more we can do, 
even if it is not dollars, which I hope we can provide, but 
more we can do, in terms of better coordination, more of a 
focus, and trying to get better results.
    You identified a major problem, which you referred to as a 
``gap in resources.'' That is something we need to focus on. 
And you also talked about getting more support and better 
coordination, as I said.
    If you could identify, right now for us, that gap; is it a 
gap in resources that have been committed, that have not been 
delivered, or is it a gap, in terms of the overall initial 
commitment, even setting aside the actual delivery of the 
support?
    Mr. Guterres. Looking at the refugee response plan, which-- 

the one we coordinate--on top of that, we have the operations 
inside Syria, of which we are a member, but we are not in the 
coordination. It's the Emergency Relief Coordinator that 
assumes that function.
    The plan was foreseeing that, in June, we would have $1.1 
million. And we made the calculations about the costs that 
corresponded to that. And we made an appeal. That appeal has 
been funded, until now, by less than 30 percent, for all 
organizations involved, which means that we have a gap of about 
$700 million, in relation to the pledges made, not in relation 
to cash.
    Just to give you the image of my organization, I have 
authorized the expenditure of $300 million. I have firm 
projections--which means cash plus pledges plus amounts that we 
are convinced, because of the dialogue we have with 
governments, that we will receive--we have firm pledges plus 
cash plus firm projections that are less than $200 million, 
which means that--I mean, my choice is very simple. Do we do 
what we have to do, and hope for the best? Or, do we stop, and 
let people suffering circumstances that, to be honest, I cannot 
assume? And so, we are risking, and hoping for the best.
    And we know that this crisis is such a dramatic crisis, it 
is not only a matter of generosity, it is a matter of 
enlightened self-interest. Nobody wants to see the Middle East 
explode. That would be a problem for the regional and global 
peace and security. So, we are hopeful that there will be 
support to what it is being done.
    Now, we were expecting the gulf to be a game changer, 
because the gulf has never substantially supported multilateral 
organizations. Kuwait, as I said, has already said their pledge 
would be channeled through the multilateral system. But, our 
indications are that the same does not apply for the other 
countries. Whatever the United States can do with other 
countries of the gulf to make sure multilateral organizations--
most U.N., Red Cross/Red Crescent, NGOs--would be very much 
welcome, because, indeed, we are facing a very difficult 
situation, because of the scale.
    And when one looks at the present trends, our work with the 
governments--I have been in dialogue with Turkey, Jordan, and 
Lebanon--with all three governments, we are expecting to have, 
in the end of the year, 1 million refugees per country. And 
that, of course, represents a dramatic impact in the economies, 
in the societies, in the security of these countries.
    Senator Casey. Are you talking about 1 million refuges per 
country by the end of 2013?
    Mr. Guterres. If we maintain. If nothing happens, if there 
is no solution. And if we maintain the present rhythm of 
outflows, that is where we are going to get. And this is, I 
mean, an unimaginable impact in the economy, the society, and 
the security of these countries.
    And what is, in my opinion, extremely important, looking at 
their generosity, is that they are ready to confront themselves 
with this reality, in terms of contingency planning. But, 
obviously, this represents a challenge that is unprecedented in 
the recent past.
    Senator Casey. I just want to make sure I understand. You 
are saying 1 million per--which countries?
    Mr. Guterres. Jordan has, today, 356--if I remember well 
the numbers of yesterday. Jordan is receiving, every day, 
between 2,000 and 3,000. I was at the border, Thursday. Jordan 
has a very good system of border control, and the border guards 
are bright people. So, based on their night-vision systems, 
tower by tower, they detect where the refugees are coming, 
and--with a few kilometers, because they are walking to the 
border. And then we went to the border to receive them, and 
they came--women, children, elderly people--six wounded by 
bullets--and I could see that--then, afterward, with the night 
google, two villages close to one village, some armored cars 
and mortars. There were three mortars that, during our presence 
there, exploded. I do not know exactly where. And you could see 
another village that is more in line with the opposition, from 
where some of these people were coming; namely, the wounded. 
And every day, we have 2- to 3,000 people crossing the border. 
Now 350,000, from now until the end of the year, even if it is 
2,000 per day, we still have probably almost 300 days to go, or 
280, or something, times two, 600,000 plus 350,000; we are in 1 
million. And it's 2,000 to 3,000 a day.
    Lebanon is even more risky, because Lebanon is the way from 
Damascus. And in a battle for Damascus, Lebanon is the obvious 
escape. So, we might have, in Lebanon, that has already a 10-
percent increase of the population, as it was rightly said by 
you, Mr. Chairman--we can have at, all of a sudden, a major 
inflow. And Lebanon is the most fragile of the countries of the 
region.
    Turkey, of course, is another capacity. And Turkey, in a 
very generous way--you mentioned $600 million, or $700 million 
that the Turkish Government has spent, itself--Turkey has 
another capacity, of course, but, for Lebanon, we are facing an 
existential threat. The Syrian crisis represents an existential 
threat. And for Jordan, because of the fragility of the 
Jordanian economy, this is, indeed, something that deserves a 
massive solidarity in the international community. We do not 
ask only for support, humanitarian organizations. I think it is 
very important that the governments of the countries around 
that are in the first line of protection of the international 
community against the Syrian crisis, do receive all the 
solidarity they deserve.
    Senator Casey. Thank you for that. I will try to get back 
to more.
    Senator Johnson.
    Senator Johnson. Well, first of all, Mr. High Commissioner, 
thank you for all your efforts and for your testimony.
    Obviously, the humanitarian aid is incredibly important, 
and we support it. But, let's face it, it is the Band-Aid. The 
cure is to getting rid of the Assad regime.
    Your comment--I wrote it down, ``staggering escalation of 
the refugee problem''--does not indicate a metric that we are 
getting close to the inevitability of the regime falling. I 
hear a lot of talk that this is going to be inevitable, but is 
it? I mean, is the Assad regime inevitable to fall, or could 
they be there for years?
    Mr. Guterres. Well, I do not have a crystal ball, and I am 
not supposed to make comments on political issues, because of 
my mandate, even if I have been in politics for 25 years of my 
life, and so, as you can imagine. And I recognize that there is 
no humanitarian solution for this problem. Let us be clear. I 
mean, we can alleviate the plight of people, but the solution 
needs to be a political solution.
    My feeling, if I am to give a feeling--and when we do 
contingency planning, we need to look into several scenarios--
my feeling is that this could last, with situations not very 
different from what we have now, but with a permanent 
degradation of the living conditions inside the country. 
Because many of the things are falling apart--educational 
system, health system, even basic services. This could last, 
still, for a large period. Whether it is months or years, I do 
not know. Nobody knows. But, we can face a situation in which 
it lasts, and we can also move from the present situation to a 
situation of chaos, for which we also have to be prepared. We 
might have refugees of different natures. If you look at the 
present pattern of refugees, they are, essentially, Sunni 
Muslims. But, one day we could have a situation with the 
minorities that is, of course, also of great concern to us all.
    So, we need to be prepared for things to get worse before 
they eventually will get better.
    Senator Johnson. OK. So, again, to summarize, I mean, your 
feeling from the ground, there is nothing inevitable right now. 
I mean, we just simply do not know what is going to happen. I 
mean, we are not seeing any inevitability, here.
    Mr. Guterres. I am someone that believes in a positive 
outcome of history, and I hope for a positive outcome of 
history.
    Senator Johnson. Sure.
    Mr. Guterres. But, I think that it might take some time.
    Senator Johnson. OK. You know, obviously, we are concerned 
of who--if the regime falls, who would replace them. We 
certainly want that group to be friendly to America, we 
certainly want to be friendly to them. We want to support the 
citizens of Syria.
    My concern--because I have heard reports of potentially 
growing resentment of Syrians that they certainly understand 
that America has the military capability to potentially bring 
this conflict to an end, but we are not doing anything. Do you 
get that same sense? Are we falling, in Syrians' opinion, 
because we are not doing more, from a military standpoint?
    Mr. Guterres. Well, I do not think--as I said, in my 
contacts with the people, what I feel is that the people 
believe that the international community, as a whole, should 
come together, and should find a solution. I do not think they 
identify a specific country, or blame whoever, for whatever 
purpose. But, there is this frustration that the situation is 
going on and on and on, and the international community is not 
able to find a solution for it. That is what I felt is the 
anger that I witness when I discuss with people. And they see 
me, also, as a representative of international community, and 
sometimes they do not make easy the distinction between what is 
a strictly humanitarian work and what is also a political 
involvement. And even when I try to explain, ``Well, this is--I 
can understand your feeling, but this is not what I can 
provide. What I can provide is just some support to alleviate 
your plight.'' As I said, sometimes it is not easy to explain 
to people.
    Senator Johnson. Sure. So, you sense a growing resentment, 
on the part of Syrians, against the international community, in 
general. Do you get a sense that America's involvement, help, 
is known, at all?
    Mr. Guterres. Oh----
    Senator Johnson. Or limited?
    Mr. Guterres [continuing]. I have no doubt that--I mean, 
all these people are--we are not--this is not similar to, I 
would say, a crisis in the Democratic Republic of Congo--and we 
are having one, by the way, in which tens of thousands of 
people cross the border to Uganda--these are people that have 
mobile phones. They listen to the news. They know what is in 
the Internet.
    I mean, our convoy--our first convoy that went to the 
northern part of Syria, I saw it in the YouTube, and it was put 
in the YouTube by the Free Syrian Army. And I heard the general 
that was accompanying them explaining what he was doing. Which 
means that people know what is happening.
    And so, I believe that the effort that the United States is 
making--namely, what has been recently announced--is perfectly 
known by the people. That does not mean that everybody likes or 
dislikes this or that thing, but I do not think--this is one of 
the most well-informed, politicized, and engaged, to a certain 
extent, refugee communities I've ever seen.
    Senator Johnson. Well, that actually leads me in exactly my 
next line of questioning, here. I certainly totally agree with 
Senator Boxer, in terms of her concern about what is happening 
to young women, to children--I mean, the horrors of war. I want 
to talk about, How do we get that information out? How do we 
publicize it? I mean, I certainly understand the power of the 
social media and Internet, but is there a really coordinated 
effort, a documentary--Is al-Jazeera on board with this? I 
mean, what are the media outlets? I mean, how are we truly 
trying to get this information out so that we can galvanize the 
world community, quite honestly, to help fill that funding gap? 
Truthfully, I do not see that information all that well 
publicized, all that well known, here in America.
    Mr. Guterres. There were, recently, three very important 
reports from the IRC, from UNICEF, from Save The Children. I 
believe there are others being prepared.
    And I have to say, again, these are things that are 
discussed in the Arab media. We follow the Arab media 
carefully, because, as you can imagine, it is vital to have 
positive attitudes toward the refugees. And there is a perfect 
consciousness of the dramatic situation inside Syria. If there 
is consciousness of something, even more than the situation of 
the refugees, is of the situation inside Syria--al-Jazeera, al-
Arabiya, most of the other Arab channels--if permanent debates, 
permanent news, permanent images coming from the inside, and, 
as you can image, with extremely, extremely tough testimonies.
    Senator Johnson. OK. Thank you, Mr. High Commissioner.
    Senator Casey. Thanks, Senator Johnson.
    I know we have to allow you to leave, because we told you 
you would be out of here sooner, and I will take responsibility 
for that.
    Just one final question. I realize that the funding gap is, 
obviously, of great concern, but let us set aside that for 
purposes of this question. Assuming you have the resources, or 
that is not an issue, but even just apart from that, what is 
the most difficult challenge you have dealing with a 
humanitarian crisis at this scale, and not having the kind of 
help you would hope, because of the limitations you have with, 
in this case, a host country that--so you have to figure out 
other means to get aid there? What is the biggest, kind of, 
mechanical or on-the-ground challenge that you have?
    Mr. Guterres. I think the biggest challenge has to do with 
the fact that this population, that, as I said, is highly 
informed, relatively politicized, will become much more angry 
than what I have said. And the risks of conflict with host 
communities will dramatically increase. And this can be a very 
disturbing factor and something that will be another element in 
increasing the risks of spillover of the conflict that I 
believe are still there. If one looks at all closely linked to 
other situations of Syria and Lebanon, in the past and in the 
present, what we see in Iraq, the fragility of other countries 
in the region, I do believe that humanitarian aid--effective 
humanitarian aid--in this moment, is not only a moral 
obligation to the people that is in need, it is also a factor 
to help these move into the right direction, and to help that 
today's Syria might be, as we all wish, a normal country and 
not a failed state or a country that is desegregated or where 
it is very difficult to establish normal democratic 
institutions.
    Senator Casey. Your Excellency, we are grateful for your 
presence here in the briefing, and taking our questions, and 
especially appreciate the commitment that you have made as High 
Commissioner. Thank you very much.
    Mr. Guterres. Thank you very much.
    Senator Casey. So, we will move to the final phase of our 
hearing today, and that will be testimony by our third and 
fourth witnesses.
    First, we have Tom Malinowski, who is the Washington 
director for Human Rights Watch, as I mentioned earlier--of 
course, Human Rights Watch is located here in Washington; as 
well, here in Washington, Michael Singh, managing director of 
The Washington Institute.
    So, we are in about the last, maybe, 25-30 minutes we have.
    Mr. Malinowski, we would ask if you could provide kind of 
a--both of your statements will be made part of the record, as 
will all the witness statements--but, we would ask you to 
provide, because we are in a more lightning-round phase, here, 
maybe a 3-minute overview, and then we will turn to Mr. Singh. 
Thank you very much.

STATEMENT OF TOM MALINOWSKI, WASHINGTON DIRECTOR, HUMAN RIGHTS 
                     WATCH, WASHINGTON, DC

    Mr. Malinowski. Thanks, Senator, for having me.
    As you mentioned at the outset, I was in Aleppo province, 
in northern Syria, in December. Human Rights Watch has had 
folks in and out a lot in the last year, in the areas in the 
north that are controlled by the opposition, where the 
opposition controls the ground, but where, unfortunately, the 
regime still controls the skies.
    The suffering was extreme, and evident, and growing. Short- 

ages of everything. There was little electricity, little fuel, 
which is needed for virtually anything that needs to get done, 
especially in cold weather. Probably the most important need, 
that everybody I spoke to in December stressed, was the need 
for flour, which is needed to make the staple food of bread 
that the people in Syria depend on. And it was really striking 
how completely absent the international community and the 
United Nations was from this entire area. The absence was 
visible. And you know why that is the case; you discussed the 
Sophie's Choice that the United Nations has been placed in, 
between operating in the south and operating in the north.
    Some aid was crossing, some of which I know the United 
States was paying for. Literally no person I met, among the 
ordinary people in the north, knew that the United States was 
providing that. And everybody asked, you know, ``Why isn't the 
international community here? Why aren't they helping us?'' And 
that anger was directed particularly at the United States, 
partly because they knew I was American, but, I think, partly 
because they just see the United States as the driving force in 
world affairs, the most powerful country. They believe we can 
do a lot more, and they assume that everything we do and do not 
do is part of a plan, which is, of course, a mistake. But, they 
assume it. And so, they leap, then, to the assumption that if 
we are not helping visibly, that must mean that we want this to 
be happening, we want Assad to win.
    When I got back, I raised these concerns with the 
administration. And certainly in the last couple of months, 
there has been a major stepping up of the effort to provide 
assistance, cross-border. No question about that. When we had a 
team in Aleppo city, in February, they noticed a lot more food 
was going in, a lot more aid was going in. The immediate 
humanitarian needs were less. People still did not know where 
it was coming from, but they even noticed that civilians were 
coming back to Aleppo city, despite all of the fighting there. 
That is the good news.
    The bad news is that, as they were arriving, some of those 
same people were packing up their bags and leaving Aleppo 
again. And it was not because of the lack of food or 
electricity or heat, or even because of the daily fighting; it 
was because four Scud missiles had fallen on Aleppo city, 
destroying entire neighborhood blocks in the last several days.
    And let us not forget, this is the central problem. It is 
not the humanitarian--strictly speaking, the humanitarian 
crisis--it is the fact that there are punishing airstrikes and 
Scud strikes on these areas all the time, designed to send a 
message to people, ``This is what will happen to you if you let 
the opposition in.'' This is what makes these areas 
ungovernable and what makes it impossible to implement all of 
these great plans that we heard about.
    Despite that, there is more we can do. There is more we can 
do to get aid across the Turkish border. Turkey has been very 
generous. They could open more crossings, they could officially 
register some of the NGO staff that are operating there, and do 
other things to facilitate assistance.
    There is more we can do to try to get the United Nations 
operating in those areas. This moving things from one side of 
Syria to another does not really work. One idea would be to go 
to the U.N. General Assembly, since the Security Council is 
blocked; try to get a resolution there to authorize the United 
Nations to provide cross-border assistance.
    You asked about branding aid, Mr. Chairman. I would very 
much like to see ``Made in the USA'' on this stuff. And most of 
the Syrians I met would. But, I would defer to the aid 
providers on the ground. We are putting their lives on the 
line. And if they say it is insecure, I would defer to them.
    Others have asked, ``Should we provide it through the 
opposition?'' I think it is absolutely essential that we 
provide some things directly to the local councils that are in 
charge of town after town in opposition areas, including cash 
grants. Help them provide basic services to their people--
sewage and water and electricity, judicial police institutions. 
But, when it comes to pure humanitarian assistance, things like 
flour and medicine that have to be moved in very large 
quantities, I think we need to depend on the agencies that have 
the logistical capacity to do that, not on the opposition.
    One last point, and this is the one I feel most strongly 
about, that we are having this discussion about branding 
because we want the Syrian people to know that the United 
States and the international community is doing something for 
them. But, I think it is profoundly unfair that we place the 
entire burden of proving to Syrians that America cares on these 
humanitarian groups providing food and medicine. That is not 
their job. That is the job of governments.
    We had this same debate in Bosnia, 15 years ago. I was 
working at the State Department. And we were not doing much but 
providing food and medicine, and that is all we could talk 
about as the bombs were falling and people were being killed. 
And they had a word for it in Bosnia, which I will never 
forget. It was called ``Bread for the Dead.'' And that is the 
pattern we do not want to get into here in Syria.
    Humanitarian aid is desperately needed. We need more of it, 
it needs to get to more people. But, we are not meeting our 
responsibilities if that is all we do. We only meet our 
responsibilities if we address the source of the suffering.
    Thank you.
    [The prepared statement of Mr. Malinowski follows:]

                  Prepared Statement of Tom Malinowski

    Thank you Mr. Chairman for inviting me to testify today.
    Since the beginning of the uprising in Syria, Human Rights Watch 
has made numerous trips to the northern part of the country from across 
the Turkish border. I was there in December for 4 days, visiting 
several towns in the countryside north and east of Aleppo City. Some of 
my colleagues went to Aleppo in February; we have also conducted 
research trips in the last year in Idlib and Latakia provinces. The 
Syrian opposition controls the ground in these areas, and is 
struggling, with growing but still insufficient international help, to 
provide for the civilian population. The Syrian Government, meanwhile, 
still controls the skies.
    In some superficial ways, the area of opposition-held Syria that I 
saw--in Aleppo province--looks normal. The border crossing is 
straightforward. There are very few checkpoints along the roads. Behind 
the front lines, one does not see or hear constant, obvious signs of 
fighting. Our staff have felt secure enough to go in and out, to travel 
about, and to spend several nights inside at a time--though of course 
with careful planning and precautions--an important fact when 
considering whether a larger international humanitarian assistance 
effort is possible.
    But the distress caused by this horrific war is evident, and 
growing. Though the towns I visited were far from fully safe, they are 
crowded with internally displaced people who had fled or been driven 
from areas closer to the fighting, some of whom have been displaced 
multiple times. Some were staying with friends and families; others 
were cared for communally in makeshift camps and facilities; all 
increased the burden on residents already running out of food and other 
necessities.
    In Assad's Syria, the central government provided many essential 
services and commodities. At first, perhaps unwilling to admit that it 
had lost control over large parts of the country, the government 
continued to allow deliveries of some goods and services to opposition-
held territory. By late last year, however, as winter cold was setting 
in, the government began denying food, fuel, and power to these areas. 
Electricity became intermittent, if it came through at all. Fuel--
essential for everything from transportation, to heating homes, to 
running generators that power hospitals and granaries that grind grain 
into flour--became in short supply. The shortage of flour, needed to 
make the bread that is Syria's staple food, was the number one 
humanitarian concern expressed by virtually every Syrian I met--by 
ordinary people, by civilian administrators, and even by rebel military 
commanders.
    When I was in Aleppo province in December, some supplies were 
coming across the border with Turkey, in what seemed like an ad hoc 
way. From time to time, local relief committees, established in every 
town to supervise distribution of humanitarian goods, would find out 
that someone, often a private individual, had brought a few truckloads 
of food or medicine or blankets from Turkey, and claim as much as they 
could; meanwhile, other towns would go without even as their supplies 
ran out.
    It was striking how utterly invisible the international community 
was in northern Syria, in comparison to many other conflict zones 
around the world. There was no sign of the United Nations, with its 
distinctive vehicles and staff. The International Committee for the Red 
Cross has been able to visit these areas from time to time but has no 
permanent presence, a problem not just because of its experience in 
providing aid, but because the ICRC has a unique mandate and capacity 
to assist and protect prisoners. I spent a few hours interviewing 
detainees in a rebel-run prison that no other international monitors 
had visited to that point.
    There is a good reason why these and some other organizations were 
absent: Many were operating from Damascus to provide desperately needed 
aid to civilians in government-controlled areas of Syria. And the 
Syrian Government had told them that they would be expelled from that 
part of the country if they crossed the Turkish border--which means 
that they could get to northern Syria only through a long and dangerous 
drive through Syria itself. U.N. agencies have to respect the 
sovereignty of a U.N. member state, unless the United Nations passes a 
resolution that states otherwise--and thus far Russia has blocked 
efforts at the U.N. Security Council to press the Syrian Government to 
allow cross-border aid.
    International donors had, in fact, paid for some of the small 
quantities of aid reaching northern Syria at the time of my visit. But 
since the origin of the aid was not made obvious to people on the 
ground, few had any idea where it was coming from. Everywhere I went, 
people asked: ``Where is the international community?'' Their anger was 
directed especially at the United States--perhaps in part because I had 
told them I was American, but mostly, I think, because they believe 
that the U.S., as the most powerful country in the world, has the 
capacity to help whomever it chooses to help, and because they assumed 
that everything the U.S. does, or doesn't do, is the result of a 
deliberate, well-thought-out plan. ``If America isn't here helping 
us,'' many people told me, ``that must be because they want Assad to 
win.''
    The absence of outside aid also diminished the credibility of 
Syria's civilian opposition leadership, including the new Syrian 
Opposition Coalition (SOC). The SOC had just been established, raising 
hopes that it could mobilize relief from the international community to 
people inside Syria. I met many people in northern Syria, including 
those running the local Revolutionary Councils, who told me that they 
respected the leaders of the SOC, but would have little time for this 
new body--and certainly little incentive to defer to its authority--
until it started delivering what they needed, beginning with food and 
fuel. Meanwhile, in some rebel-held areas, more extremist elements of 
the opposition, including Jabhat al-Nusra, were gaining support 
precisely because they were able to distribute humanitarian aid.
    As difficult as conditions were in Aleppo province, our staff found 
they were even worse in the parts of Idlib and Latakia that they 
visited late last year--since those areas are less accessible from 
Turkey. By all accounts, civilians in the far eastern area around Deir 
ez-Zor have faced particularly great distress in recent months, and 
there is reason for concern about the inhabitants of the city of Ar-
Raqqah, which had reportedly almost tripled in size due to the influx 
of displaced persons before falling to the opposition in February.
    Mr. Chairman, Human Rights Watch and other organizations that had 
been on the ground in Syria have reported these concerns to the 
administration over the last several months, but I can report some good 
news. The U.S. Government has significantly boosted funding for 
assistance provided by private relief organizations operating across 
the Turkish border. When our team visited Aleppo in February, their 
contacts reported that more aid was arriving and that food shortages 
had lessened since our previous visit in December. Most people said 
that they still didn't know who was providing the aid. But at least the 
aid was getting through. Partly as a result, even in Aleppo City, close 
to the front lines, our team saw many more civilians, including women 
and children, back in their homes--some of whom had returned from what 
they described as the indignity of living in displaced person camps.
    But here is the bad news. It is also, I'm afraid, the most 
important news: While our team was in Aleppo, they noted that many 
civilians had begun leaving the city again. The reason was not the 
absence of aid or of electricity or of water, or even the fighting 
nearby, all of which they could endure. It was because the Syrian 
Government had started launching ballistic missiles, including Scuds, 
at Aleppo, weapons capable of leveling entire city blocks at one time. 
These ballistic missiles cannot be targeted accurately. When fired on 
cities, they serve one purpose--to terrorize people. The message these 
strikes deliver to civilians throughout Syria is clear: ``This is what 
will happen to you if you allow the rebels into your towns and 
neighborhoods.''
    In many of the opposition-held areas where our teams have conducted 
investigations, government airstrikes on populated areas had a similar 
effect over time. This bombardment is not constant. In many towns my 
colleagues and I visited in December, for example, there had been no 
airstrikes for several days. But this may have had more to do with the 
poor weather over northern Syria during that time. On my last day in 
Aleppo province, a clear, sunny day, virtually every town we had passed 
through was hit. During the afternoon, submunitions from a cluster bomb 
(an inherently indiscriminate weapon that the Syrian Government has 
routinely used), struck across the street from the home where we had 
had breakfast that morning, killing three people.
    When aircraft appear in the sky, there is no warning and nowhere to 
hide. Each day people just wake up and wish for bad weather. Even in 
the most securely held opposition areas, the threat of air and missile 
attacks complicates efforts to provide services to the population. Each 
local council faces dilemmas: Should schools be kept closed, denying 
children an education, or should they be opened, taking the chance that 
an airstrike could kill dozens of kids concentrated in one place? 
Should people be asked to pick up their daily bread at bakeries, as 
they traditionally have done, even though government forces have 
repeatedly bombed bakeries as civilians lined up outside? Or should far 
more cumbersome door-to-door deliveries of bread to people's homes be 
organized?
    The lack of humanitarian aid is a big problem for ordinary people 
in Syria, Mr. Chairman. But the underlying problem is the lack of 
security.
    That said, there are some steps that could be taken to alleviate 
the humanitarian crisis. Human Rights Watch would like to suggest a 
few.
    First, the U.S. and other concerned governments should explore ways 
to make it possible for U.N. agencies to provide cross-border 
assistance to opposition-held areas in a safe and effective manner. It 
will be hard to provide assistance to opposition-held areas in the 
quantities needed if U.N. agencies with the logistical capacity to 
manage those kinds of operations are not involved. The U.N.'s efforts 
to provide so-called ``cross-line'' assistance--from government to 
rebel-controlled areas--will not suffice. Such convoys must cross 
dangerous frontline areas, requiring time-consuming negotiations with 
both government and rebel forces; it makes little sense to spend days 
and weeks moving supplies in this way to people who in some cases are 
living just minutes from the Turkish border.
    The Syrian authorities have rejected repeated calls to allow the 
U.N. to operate cross-border, and likely will continue to do so, as its 
strategy appears to be to increase, rather than diminish, the distress 
of people living in areas occupied by the opposition. Russia has not 
supported action by the Security Council even to ease the humanitarian 
suffering of civilians in these areas. The U.S. should continue to 
press for Security Council action. At the same time, it should explore 
an alternative approach: asking the U.N. General Assembly, where no 
country has a veto, to authorize U.N. agencies to provide cross-border 
aid.
    Second, the U.S. government should increase support for private 
relief organizations providing cross-border assistance. This support 
has grown over the last few months, but is still insufficient. The U.S. 
should also encourage Turkey, which deserves credit for facilitating 
the assistance provided thus far, to take additional steps needed to 
increase its volume.
    For example, most relief aid now enters Syria at one border 
crossing, south of the Turkish town of Killis. If Turkey were to 
upgrade and open other crossings, it would be possible to scale-up 
assistance, and allow access to more remote areas currently receiving 
little aid, such as in northeast Syria. It would also be tremendously 
helpful if Turkey were to allow humanitarian organizations managing 
cross-border efforts to obtain legal registration and work permits for 
their staff. This would enable them to obtain bank accounts and rent 
property, and make it easier for them to sign larger contracts with 
Turkish businesses to obtain supplies. Finally, it would be helpful if 
Turkey took the technical steps necessary to extend the coverage of its 
cell phone network into Syria, allowing aid workers to communicate more 
securely deeper inside the country.
    Some have asked if assistance provided by the U.S. Government 
through nongovernmental organizations should be labeled as coming from 
the United States. As I mentioned, many people I met in northern Syria 
were angry that the international community was not--as far as they 
could tell--helping them, and would I believe have been happy to see 
that aid was coming from the United States. But I cannot be certain 
that all Syrians would be, in a part of Syria where jihadi groups are 
increasingly active, or that branding aid would pose no security risk 
to those providing it. The U.S. Government, like any other government, 
ought to be communicating transparently about its aid and telling the 
Syrian people, through its contacts in the opposition and through the 
media, that it is providing assistance. But on the question of branding 
the aid itself, the U.S. should defer to those putting themselves on 
the line to deliver it.
    Others have asked whether humanitarian aid should be provided 
directly to the Syrian opposition bodies, including the SOC, allowing 
them to distribute it to the population. We believe it is appropriate 
for the U.S. to provide direct assistance, including adequately 
monitored cash grants, to local councils to help them provide basic 
services to their people--to maintain water, sewage, electricity, and 
emergency response systems, to restore judicial and police institutions 
that will respect human rights, and to start rebuilding infrastructure. 
Such assistance will meet immediate needs, strengthen the credibility 
of moderate elements in the opposition, and lay the groundwork for 
post-war reconstruction. But when it comes to pure humanitarian 
assistance--items like flour and fuel that have to be shipped across 
the border in large quantities and distributed to people impartially on 
the basis of need--it is better to rely on organizations that have the 
experience and logistical capacity on both sides of the border and that 
will ensure that aid is not politicized.
    Let me make one final, and crucial point: The debate about branding 
aid is happening because donor governments want the Syrian people to 
know that they are doing something to help. But it is not fair to place 
on humanitarian organizations the entire burden of proving to Syrians 
that the United States cares about their plight. The humanitarian 
organizations are doing their job as best as they can under appalling 
conditions. To ask them to achieve political ends--whether building 
good will for the West among Syrians, or strengthening the opposition, 
or protecting Syrians from violence--is to transfer to them 
responsibilities that belong to governments, including the U.S. 
Government. It is a way of absolving governments of their 
responsibilities.
    It is also not going to work. Humanitarian aid is important, but it 
is only a temporary solution, a band aid, to reduce suffering.
    The world faced a very similar set of issues in Bosnia during the 
1990s. For 3 years, as tens of thousands of civilians were killed and 
driven from their homes, as the city of Sarajevo was besieged by 
artillery and snipers, the primary response of the international 
community was to send humanitarian aid. A U.N. peacekeeping mission was 
deployed to protect that aid, but not to protect the people receiving 
it. I was a speechwriter at the State Department at the time, and the 
talking points I prepared in answer to questions about the killing in 
Bosnia always began with an account of the tons of assistance the U.S. 
had provided.
    In Bosnia they called it ``bread for the dead.'' People accepted 
the aid, of course. They needed to eat and to stay warm. But they never 
felt that the international community was providing meaningful help so 
long as atrocities being committed against them continued. Food and 
medicine might keep them alive long enough to be killed by a bullet or 
tank shell. But it solved nothing.
    Humanitarian aid is desperately needed in Syria, Mr. Chairman. We 
should be providing more of it, to more people. But there is no 
humanitarian solution to Syria's humanitarian crisis.

    Senator Casey. Thanks very much.
    Mr. Singh.

 STATEMENT OF MICHAEL SINGH, MANAGING DIRECTOR, THE WASHINGTON 
                   INSTITUTE, WASHINGTON, DC

    Mr. Singh. Thank you, Mr. Chairman, members of the 
committee. I will be brief. You have my written statement.
    You know, we are here talking today about a humanitarian 
crisis in Syria, but I think that it is not really possible, as 
Tom said, to address that crisis without a successful policy to 
resolve the conflict which is causing the crisis. And this is 
that rare foreign policy issue where we have a confluence of 
moral imperative and strategic interest.
    The moral imperative is clear; it is what we have heard 
about today: 70,000 or 80,000 killed, almost 4 million 
refugees. But, I would say the strategic interest for the 
United States in doing more is also clear. This violence has 
spilled into neighboring countries. Those neighbors are our 
allies, and it threatens regional security. The flow of 
refugees threatens the security and the economic stability of 
our allies there, as well. Whereas, the fall of the Assad 
regime would represent a blow to Iran, because Syria has served 
as a conduit for raining influence and power projection in the 
Levant for many years. And, to the extent we act firmly in this 
regard, it will underscore our credibility, and that will be 
useful in many other ways in this region. It will send a 
message to our friends and to our foes.
    Our current policy is not working. It has not been 
effective in addressing either the humanitarian crisis or 
advancing our interests. We have sought to contain this 
fighting while seeking to craft a diplomatic solution, but both 
of those goals have proven illusive. The fighting, as I said, 
has spilled over borders, and diplomacy has not really gone 
anywhere. And the redlines we have articulated--preventing a 
mass atrocity or the use of chemical weapons--have really ceded 
control over the question of our intervention, or the timing of 
our intervention, to the Assad regime.
    And I think we need to, first, start a new policy 
discussion by assessing our objectives. I think our objectives 
should be to bring this war to a quick resolution, to avoid 
further regional spillover, especially in terms of the transfer 
of Syrian weaponry that we have talked about, and strengthen 
the moderate opposition to help them plan for a stable and 
peaceful post-Assad Syria, as has come up already in this 
hearing.
    We face, obviously, very serious obstacles in doing this; 
not least of all, the presence of extremists in the opposition, 
which gets made from our allies, reportedly, as well as the 
support going to President Assad from Russia, Iran, and others; 
and, of course, the possibility that Syria may resort to last-
ditch tactics, like the use of chemical weapons.
    I think a strategy to achieve our objectives, despite these 
obstacles, should have three pillars: people, funding, and 
military support. And I will just very quickly talk about each 
one of those.
    When it comes to people, I think, on the regime side, we 
need to assure minorities who still support the regime that 
they will be protected and included in a post-Assad Syria, and 
we need to provide incentives to military officers to defect.
    On the opposition side, I think it is important that we 
support the Syrian opposition in forming an interim government, 
and that we try to channel as much support as possible through 
that government to give them leverage inside Syria.
    When it comes to funding, the Syrian regime is reportedly 
still receiving imports and revenue for its exports. There was 
a report by Human Rights First, I think, which detailed this, 
and I think we do need to strengthen our sanctions, as you 
said, Mr. Chairman.
    On humanitarian funding, you have already heard plenty 
about that. But, when it comes to the funds that actually help 
the opposition to defeat Assad, those have been very scant. We 
have provided just $115 million, including the recently 
announced $60 million that Secretary Kerry mentioned. And this 
is in contrast, for example, to the $190 million that we just 
provided in budgetary support to the Egyptian Government. Now, 
Senator Johnson, you talked about priorities. I do not 
understand how that squares with U.S. priorities, or what 
should be U.S. priorities in this region.
    When it comes to the military-support side, obviously this 
is a very contentious question. But, from my point of view, if 
we are going to break the sort of rough stalemate that has 
broken out between the regime forces and the opposition forces, 
that means either we have to degrade the regime forces or we 
have to bolster the opposition forces, or both. And if you look 
at the regime forces, frankly, as their ground forces have 
suffered attrition, they have relied more on air power and 
missile forces. And so, I would say that we should be leading a 
discussion in NATO to target those with airstrikes.
    When it comes to the opposition, obviously we do not want 
to leave the field to the extremists. We want to help the 
opposition build a professional, friendly, competent security 
force which will still be in place after Assad falls. And I 
think that if you are going to be a part of that, if you are 
going to offer training and equipment, you also have to offer 
arms; otherwise, realistically speaking, you are not going to 
have influence in that process, you are going to leave the 
field to the extremists.
    I do not think this should just be a U.S. strategy; it 
should be an international strategy. So, a key part of this is 
building support. And one thing we have seen is that, even our 
regional allies are diverging strongly in their approach to 
Syria. And I think a more active U.S. leadership role would 
help to address that.
    Now, I think all this carries risks, but, I think, as we 
have also seen, inaction carries risks, both to stability of 
the region and to our place in it.
    Thanks very much.
    [The prepared statement of Mr. Singh follows:]

                  Prepared Statement of Michael Singh

    Chairman Casey, Ranking Member Risch, members of the committee, 
thank you for the opportunity to address this subcommittee on a topic 
of great moral and strategic importance to the United States. The topic 
of today's hearing is the humanitarian crisis in Syria, which is of a 
scale with few parallels in the world today. However, it is not 
possible to divorce this humanitarian crisis from the conflict which 
has given rise to it, nor is it possible to craft a successful policy 
to address the crisis without a successful policy to resolve the 
conflict. There is nothing humanitarian in providing assistance to the 
victims of a conflict we are doing little to end, when it is within our 
power and our interest to do far more.
    In the Syrian civil war we see a confluence of moral imperative and 
strategic interest; where so often these impulses conflict, here they 
coincide. The moral case for action is clear--the United Nations has 
asserted that 70,000 civilians have been killed in Syria since March 
2011, and almost 4 million, out of a population of 22 million, forced 
from their homes, about 1.2 million of whom have fled Syria entirely. 
These numbers overwhelm comprehension, yet still fail to convey the 
full extent of Syrians' suffering--the violence visited upon children, 
the terror inflicted upon civilians by indiscriminate air and missile 
attacks, or the deprivation imposed on both sides by war.
    The case made by this grim toll is bolstered by the cause for which 
the opposition fights--freedom from tyranny and repression. It is 
prudent to harbor grave doubts that the overthrow of the Assad regime 
will yield democracy or even stability, and our policy cannot be based 
on the expectation of such an outcome. But our realism need not give 
way to cynicism--Syrians' struggle for liberty, with which Americans 
can uniquely identify, is genuine.
    Nevertheless, it has been rightly observed, including by President 
Obama, that we cannot solve every humanitarian crisis. If a compelling 
moral case were our threshold for intervention around the world, we 
would find ourselves overextended and quite likely unsuccessful.
    The moral case in Syria, however, is paired with a clear American 
strategic interest. The fighting in Syria poses a threat to regional 
stability, having already spilled over into Turkey, Lebanon, Israel, 
Jordan, and Iraq--all of Syria's neighbors, and all allies of the 
United States. The massive flow of refugees from Syria into some of 
those countries, furthermore, poses an additional threat to their 
stability, and places severe strains on local economies.
    The fall of the Assad regime, on the other hand, would deal a 
severe blow to the Iranian regime, which has long used Syria as a 
forward operating base from which to project power into the Levant. 
This is not to say that Assad's fall would leave Iran at a total loss--
Iran has proven adept at operating in unsettled environments and 
cultivating alliances of convenience even with groups to which it is 
ideologically opposed. Truly disadvantaging Iran would require the 
eventual emergence of a stable, sovereign state unwilling to serve as 
Tehran's proxy.
    To the extent the United States follows up on our calls for Assad's 
departure with action to bring it about, we will also underscore the 
credibility of our warnings and our willingness to act to advance our 
interests. There is a perception in the Middle East--shared by our 
friends and our foes--that the United States has lost our will or even 
our capacity to act in the region, as demonstrated by our talk of a 
``pivot'' to Asia, the removal of a Carrier Strike Group from the gulf, 
and, not least, our passivity in the face of the Syrian conflict. The 
message we send--whether by our action or our inaction--will not be 
lost on friend or foe. A new regional order has been forming in the 
Middle East since the outbreak of the Arab uprisings in 2011, and 
America's place in it will largely be decided by our handling of Syria 
and Iran.
                             current policy
    Current American policy on Syria has not been effective either in 
addressing the humanitarian crisis or advancing our strategic 
interests. Our policy appears designed to contain the Syrian conflict 
while crafting a negotiated solution between the Assad regime and the 
opposition. Neither aim is succeeding. As previously noted, the 
conflict has increasingly spilled over into neighboring countries; and 
a diplomatic solution has proven elusive, as Assad has refused to stand 
aside, the opposition has despaired of negotiations with him, and his 
international backers have proven steadfast in their support for him 
and opposition to action in the U.N. Security Council, despite 2 years 
of diplomatic efforts by the Obama administration to sway them.
    The ineffectiveness of our approach 2 years into the conflict 
naturally raises the question of what could prompt a change in our 
course. The redlines that the U.S. has articulated--use or transfer of 
chemical weapons by the Assad regime, or the commission of a mass 
atrocity--lack credibility or effectiveness: Credibility, because 
reporting over the course of the conflict make it unclear that 
Washington would detect the movement or use of chemical weapons or 
commission of an atrocity in time to prevent such actions, and because 
it is unclear that the administration would truly be willing to commit 
military assets in response given U.S. officials' estimates of the 
force required to achieve even limited objectives in Syria; 
Effectiveness, because U.S. and international warnings have not 
prevented tens of thousands of civilians being killed by other means. 
Our redlines also cede control over the question of international 
intervention to Assad; if we are to become more involved in this 
conflict, we should do so according to our schedule, not the regime's.
    We are wrestling in Syria, in a sense, with the legacy of Iraq and 
Afghanistan rather than the challenges of the Syrian conflict itself. 
Americans are justifiably war-weary and wary of wading into yet another 
Middle Eastern conflict which on its face has little to do with us and 
seems unsolvable. Our economic circumstances and fiscal challenges do 
not lend themselves to new overseas engagements. But we must beware 
short-term thinking; whatever lessons one draws from Iraq and 
Afghanistan, the lesson of Syria years hence may be that inaction, just 
like action, has costs and consequences. The Middle East remains vital 
to American interests; turbulence there will have an impact on our own 
economic and national security, and any credibility we sacrifice in the 
region will need to be re-won many times over.
    It may be that neither our allies nor the American public will 
support a bolder policy in Syria. I would argue, however, that we will 
not know until we make the case.
                             policy options
    An assessment of our policy options must begin with a reassessment 
of our objectives. It is insufficient and outdated to assert that Assad 
must go--Assad is in a sense gone, as he no longer governs wide swaths 
of Syria and is fighting to survive rather than for control; nor to 
pledge support for the opposition--the opposition is divided between 
relatively secular forces we can support and extremists we cannot; nor 
simply to provide humanitarian relief without addressing the conflict 
which drives the humanitarian crisis.
    Instead, our strategic objectives--beyond the provision of 
humanitarian assistance and aid for refugees and their hosts--must 
reflect the current reality of the conflict in Syria. First and 
foremost, we should seek a quick end to that conflict, which almost 
certainly will require removing the Assad regime; in doing so, we 
should seek to limit any deeper involvement by Hezbollah or Iran in the 
conflict or the dispersal of Syria's WMD and other arms; given that the 
opposition may at this point be held together by little other than 
their mutual opposition to Assad, we should also seek to forge a broad 
opposition consensus behind principles for a post-Assad Syria and 
encourage the formation of a broad-based interim government; we should 
seek to deter post-war score-settling and sectarian conflict; and we 
should seek to preserve Syria's territorial integrity to avoid the 
cascade of conflicts that could attend its disintegration.
    In pursuing those objectives, we face serious obstacles. The armed 
opposition inside Syria includes extremists, who by some accounts are 
the best-organized of the various rebel factions and may receive 
assistance from U.S. allies in the region. It is unclear to what extent 
Syria's Kurdish minority is interested in being ruled from Damascus 
after the fall of Assad. The Assad regime apparently continues to enjoy 
support from some Syrian minority groups who worry about the intentions 
of the opposition and distrust Western assurances. The regime continues 
to receive support from abroad as well, in particular from Russia, 
Iran, and Hezbollah. And the regime retains dangerous capabilities such 
as chemical and biological weapons which it may employ in a last-ditch 
effort to survive.
    To accomplish our objectives despite these obstacles, I propose a 
three-pillar strategy, focused on people, funding, and material 
support. For each pillar, we should design one set of actions focused 
on undermining the Assad regime, and another focused on bolstering the 
opposition and preparing for a post-Assad Syria.
People
    While there have been numerous defections and casualties among the 
senior ranks of the Syrian military and the Assad regime, support for 
the regime appears to persist among the Syrian population, especially 
among the Alawite and Christian communities. Undermining that support 
requires a two-sided policy. On the one hand, the U.S. and our allies 
must be forceful advocates for Syrian minorities, working actively to 
ensure their representation in opposition bodies and guaranteeing their 
protection in post-Assad Syria. This is easily said, but more difficult 
to do, as mere verbal assurances are not likely to be deemed credible 
by these communities. It will require ensuring that these minorities 
are integrated into post-Assad planning efforts from the start, and 
after Assad's fall it may ultimately require the establishment of safe 
zones policed by international peacekeepers, to deter sectarian 
bloodletting.
    The other side of this coin is incentivizing military officers and 
other high-level supporters of the regime to defect as many of their 
colleagues have. The U.S. and our allies can play a role in this by 
offering clemency to all but the commanders most responsible for the 
regime's war crimes, and encouraging the Syrian opposition to do the 
same. This need not preclude immunity being offered after Assad's fall 
even to officers who do not defect--that will be a question for Syrians 
themselves, who should be guided by lessons from Iraq and elsewhere--
but those officers should not expect to be spared sanctions and other 
penalties during the conflict.
    When it comes to the opposition, our focus should be on supporting 
responsible, democratically minded leaders of the political and 
military opposition, and helping them to govern and deliver services in 
areas where Damascus has lost control and planning in earnest for a 
post-Assad Syrian Government. The Obama administration has recently 
taken some welcome steps regarding the former, notably by committing 
funds to begin building local institutions in opposition-held areas. On 
the latter front, however, we should encourage the opposition to form 
an interim government which can serve as a focal point for opposition 
efforts, build a set of principles beyond merely seeking to topple 
Assad that can bring the opposition together, and serve as a channel 
for international aid and coordination. This point is key--if we want 
such an interim government to have genuine influence, we should channel 
our support through it to the opposition. This may, at times, not be 
the most effective way of delivering aid to those who need it, but is 
important for building up a viable, nonextremist alternative to the 
Assad regime.
Funding
    Despite the strong sanctions that the U.S., EU, and others have 
imposed on the Assad regime, it is reportedly continuing to receive 
imports of goods critical to continuing the conflict, as well as 
revenue for exports. A recent report by Human Rights First provides 
some details on the countries and international banks that are 
complicit in providing this financial lifeline to the Assad regime. 
Washington and our allies should strengthen our sanctions regime to 
target those governments and entities which are doing so, using the 
example of similar sanctions enacted against Iran and North Korea.
    Funding for the opposition, on the other hand, continues to lag. On 
the humanitarian side, the United Nations stated recently that it has 
received just one-fifth of the $1.5 billion it believes to be necessary 
to fund its Syria relief operations for the first 6 months of 2013. The 
Obama administration recently announced an additional $155 million in 
humanitarian assistance, bringing the U.S. total to $385 million, but 
it is clear that our allies need to step up their support in this 
regard. The U.S. should be at the forefront not only of providing 
funding, but of the diplomatic effort to secure funding from others, as 
the refugee crisis implicates the security of close allies such as 
Jordan and Turkey and threatens the fragile stability of countries such 
as Lebanon, all of which are important to broader American interests in 
the region.
    Even less impressive, however, is the assistance provided to the 
Syrian opposition to prevail in its fight against the Assad regime. The 
Obama administration recently announced that it would contribute an 
additional $60 million in nonlethal support to the opposition, bringing 
the U.S. total reportedly to $115 million, though this figure may 
exclude other forms of support being provided. This figure pales in 
comparison to support being provided in support of other American 
strategic interests in the region, few of which are as urgent as the 
Syrian conflict. Secretary Kerry's announcement of new aid to the 
Syrian opposition, for example, was closely followed by an announcement 
of $190 million in budgetary support for Egypt, which has been using 
aid in part to defend the value of its currency. It is hard to square 
this discrepancy with any reasonable prioritization of U.S. interests 
in the region, or estimation of the return that the investment of U.S. 
foreign aid dollars will yield to our national security.
Material Support
    Few questions have been as contentious as what level of military 
involvement in the Syria conflict is appropriate, if any. The best way 
to reach this decision is again to first consider our objectives, 
rather than to begin merely by debating tactics. Bringing the conflict 
to a quick conclusion requires breaking the rough stalemate that has 
developed between regime and opposition forces. This argues for 
degrading the regime's military capabilities, enhancing the 
opposition's, or both. But promoting stability in Syria after Assad's 
fall requires developing a professional, nonsectarian security force, 
which argues for direct military assistance to the opposition. With 
regard to both, we should seek to avoid open-ended commitments, and 
focus instead on discrete goals achievable in the short-to-medium term.
    As the ranks of regime forces have suffered attrition, it appears 
that Assad has come to rely increasingly on air power and missile 
forces. Eliminating these would erode much of the regime's advantage 
over opposition forces. To this end, the United States should seek NATO 
support--since the U.N. route is effectively closed due to Russian and 
Chinese opposition--for limited air strikes in Syria against the 
regime's key military assets. This, too, is easier said than done, and 
will require significant diplomatic effort, which makes it all the more 
important that this effort begin immediately.
    An equally important effort--and practically speaking, one which 
can be more quickly implemented--will be to deprive the Syrian regime 
of the assistance that it is receiving from abroad. While the regime 
appears to be receiving most of its weapons from Russia, Iran, and 
Hezbollah, the aforementioned report by Human Rights First details a 
number of countries and entities which are providing military goods to 
Assad, whether weapons, communications technology, or fuel. A more 
robust effort to disrupt this supply chain--either through sanctions or 
interdiction--is needed.
    Regarding the opposition forces, it has been widely noted that 
while they are receiving arms and other forms of military support, that 
support seems to be disproportionately benefiting extremists who in the 
long term may represent as much of a threat to U.S. interests as does 
the Assad regime. Given our strong interest in helping to establish a 
stable, moderate, and democratic government in Syria after Assad's 
fall, we should seek now to build a professional, friendly security 
force that can not only hasten the regime's demise but assume security 
responsibility afterward. While various reports suggest that the U.S. 
is already providing a limited amount of training and other assistance 
to opposition forces, realistically speaking our influence will be 
limited if we are not also providing lethal assistance, including arms. 
While this certainly creates a risk--both of small arms proliferation 
in the region and of fueling a post-Assad civil conflict among 
opposition factions--the risk of not doing it, and leaving the field 
strictly to the extremists, appears greater.
    It would be far preferable if no international military involvement 
were required in the Syrian conflict. It is likely that had we taken 
bolder action earlier in the conflict, such measures would not be 
necessary or would have entailed fewer risks. Having passed the 
strategic inflection point at which Syria's peaceful uprising became an 
increasingly fragmented armed conflict, however, we must contend with 
the reality that confronts us today.
    For this three-pillar strategy to be effective, it cannot and 
should not be carried out by the United States alone. Rather than 
simply implementing it unilaterally, we should seek support from our 
allies both inside and outside the Middle East. In particular, it is 
important that we strive to build a consensus among our regional 
allies, who have had starkly different approaches to the conflict. Some 
of these differences stem from diverging interests and ideologies, but 
they are also in large part the result of the United States failure to 
stake out a strategy and exercise leadership.
    I do not make these proposals lightly; bolder action carries risk, 
and of course may be less effective than I hope. But while the outcome 
of a different policy is as yet unknowable, the consequences of 
passivity and inaction must now be regarded as clear--a conflict which 
is deepening, not abating, and which is drawing in the region, rather 
than remaining contained. This is precisely the sort of crisis which on 
both a moral and strategic basis calls for American leadership; if we 
decline to exercise such leadership, the consequences--for the Middle 
East and for our position there--may be grimmer still.

    Senator Casey. Thanks very much for your testimony, both of 
you.
    I have a couple of questions before we turn to Senator 
Johnson.
    I, just for the record, wanted to highlight part of the 
legislation that Senator Rubio and I will introduce today. It 
is section 5 of the bill, which says that, and I am quoting in 
pertinent part here, ``The President is authorized to furnish 
assistance and make contributions in order to,'' and then it is 
itemized from there--one, two, three, four, five. No. 3 is the 
following, and I am quoting, ``Provide nonlethal equipment and 
training, including training and equipment related to chemical 
weapons, and equipment such as body armor, night-vision 
equipment, communications equipment, to vetted members of the 
Free Syrian Army,'' and goes on from there.
    So, I think that there is at least a measure of bipartisan 
support for that kind of action. We could talk at length about 
something beyond that, that involves lethal force. But, I think 
we are at least at a point now where we have pretty broadbased 
support for that kind of assistance, in addition to the other 
assistance we outline in the legislation.
    I wanted to get a sense, from both of you, but I will start 
with Mr. Malinowski, about the influence of extremist groups 
within the Syrian opposition. We all have a sense of that, but 
I am not sure we have a full and complete understanding of the 
extent of the influence of those extremist groups within the 
opposition, and the extent to which they affect the provision 
of assistance, what we are here to talk about today. Could you 
comment on that, or just give us the benefit of your insight 
into that?
    Mr. Malinowski. Sure. I did not see too much of it when I 
was there. Perhaps if I had, I would not be here.
    Senator Casey. Right.
    Mr. Malinowski. But, people were talking about it. It is 
clear that there was much more of it than, say, 6 months or a 
year before. There was a very, very overwhelming sense, among 
the people I met, that one reason for this--and they stressed 
this with great passion--was that there was a perception that 
they were not getting help from anybody else. So, people would 
say it was----
    Senator Casey. So, kind of, the bad guys filling a void.
    Mr. Malinowski. Filling the void.
    Senator Casey. Yes.
    Mr. Malinowski. So, people who were very secular would tell 
me, you know, ``Look, we don't like al-Qaeda, we don't like 
al-Nusra, we don't want to be ruled by these people. We know 
that they're a threat. But, you know what? You didn't help us, 
and they helped us.'' And they would get very passionate about 
this. And you can understand, in that situation, why people 
could hold those contradictory thoughts at the same time.
    One person, one elderly man, said to me, ``You created al-
Nusra by not helping us, and now you use their existence as an 
excuse not to help us.'' Again, this is very visceral, and it 
is not fair to say we created al-Nusra. But, you know, I am 
just sort of explaining to you the kinds of things that people 
will say inside.
    Clearly, I think, although that is an exaggeration, there 
is a relationship between the popular perception in these areas 
of how much the international community is helping them and the 
ability of these other groups to fill the void, because they 
distribute humanitarian aid. And, to the extent we are seen as 
helping--to the extent that the moderate opposition bodies--the 
civilian council--are able to deliver things that people need, 
they have greater authority, they have greater respect. And so, 
strengthening those institutions is critical.
    Senator Casey. How would you, if you could--and we do not 
need numerical or percentage precision, here--but, if you had 
to kind of break down the extremist influence within the 
opposition, what percent, if you can, would you assign to al-
Nusra, al-Qaeda? And how would you kind of itemize those?
    Mr. Malinowski. I cannot give you percentages. I think, 
among the general population, there is not enormous support for 
them. Again, some of it is this sort of, ``They're the only 
people doing certain things, and therefore, we have to tolerate 
them.'' That is the attitude.
    Among the frontline fighters--I was not on the front line, 
but one is told that they are among the best fighters, and so 
they are often sort of at the front edge of the spear.
    Senator Casey. Is there one extremist group just among the 
fighters--that is predominant, or is it a kind of a mixed bag?
    Mr. Malinowski. One hears al-Nusra, but, again, I do not 
have--I cannot give you a direct knowledge of that, in the 
sense that I can of other things. But, I do think that most of 
the ordinary people you talk to do not profess to support those 
groups. Most of them claim that they recognize the dangers that 
they pose. But, then you get the other side of the coin.
    Senator Casey. Mr. Singh, I do not know if you have a 
comment on this or----
    Mr. Singh. I agree fully with Tom. I think, though, the one 
question we need to ask, that, frankly, should be posed to the 
administration, is, Why don't we know more about the 
composition of the opposition? I think General Dempsey, the 
Chairman of the Joint Chiefs of Staff, said, yesterday, that 
there is no opacity to the opposition, that he feels that's 
increased over time.
    You know, at the same time, this civil conflict has been 
going on for 2 years. And so, I would think this would be a 
high-priority intelligence target. And obviously, we have done 
a good job, in the United States, of understanding extremist 
networks elsewhere. And I think the question has to be asked, 
why we have not had the same success here.
    Senator Casey. I want to, in the interest of time, turn it 
over to Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I mean, I am highly concerned. I think America needs to be 
highly concerned about the perception of the Syrians. I mean, 
perception is reality. And if there is a growing resentment 
because we are not doing enough, that does not bode well for 
us, long term.
    I heard a rather chilling story, Mr. Chairman, about a 
mother in a refugee camp, generally supportive of America, but 
who was telling about her son, who believes we should be doing 
more, and her basic comment was, ``He is your enemy for life.'' 
And that's not good.
    Mr. Singh, do you believe it is enough, in terms of 
bringing this conflict to an end--because I think that is the 
solution. I mean, we are simply not going to solve this 
humanitarian crisis without really toppling the Assad regime--
is it enough for the United States not to stand in the way of 
other countries providing arms? I mean, can we get by with that 
strategy? Does that have any chance of success?
    Mr. Singh. You know, I do not think that is a policy, 
personally. I think not opposing others doing something is 
essentially saying, you know, ``No comment on that.'' I do not 
think that is a position the United States can take, in this 
region. This is the most--in a sense, you know, one of the most 
important, most urgent national security problems in this 
region. Our allies in this region look to us for leadership. 
And I think simply saying, ``We're not going to oppose what 
others are doing,'' is not providing leadership.
    Senator Johnson. I mean, I will be the first to admit, I do 
not envy anybody the task, making these decisions. These are 
enormously complex situations. Can either of you explain why 
the administration has not been more forward, more helpful, in 
terms of the military? I mean, what has been the underlying 
reluctance?
    Mr. Malinowski. I hesitate to speak for the administration.
    Senator Johnson. In terms of what you have seen in the 
ground, I mean, what is the danger of greater U.S. involvement? 
I mean, it is really a legitimate question.
    Mr. Malinowski. I believe there should be more U.S. 
involvement, obviously. I have made the case to you all that I 
do not think humanitarian aid is going to be enough; it is 
certainly not going to be enough to convince Syrians that the 
United States is on their side, if that is the goal that we 
want to pursue.
    It is an incredibly difficult, dangerous, and complicated 
situation, so I do not blame anyone who looks at this and fears 
the uncertainties and the consequences of going in. You might 
be able to save a lot of lives, but then you have to think, if 
you are the President, What is the step that comes after that, 
and after that?
    So, I do not blame people for hesitating and for asking 
really tough questions of proponents of getting more deeply 
involved, but I do think one has to ultimately consider, What 
are the consequences of not getting involved?
    The thing that Mr. Guterres said that really struck me, 
because I had not focused on it enough yet, is this rapid 
acceleration of the refugee flow to other countries. If it is, 
indeed, going to be a million per country, as he suggested, 
that is not sustainable. It is just not sustainable. And so, I 
think the question policymakers need to consider is, If we are 
not going to solve this crisis entirely by then--which I think 
is unlikely--can there at least be an area inside Syria that 
can be safe enough for people to be able to stay there, or to 
go back there and to survive there, so that you do not have a 
burden on Lebanon and Jordan and Turkey and Iraq that is going 
to create mayhem throughout the region?
    Senator Johnson. Mr. Singh, do you believe, if the United 
States got more involved--let us say we directly supplied 
arms--I mean, could this conflict be brought to an end by 
supplying the opposition forces with arms, or is this going to 
require air support or greater involvement by NATO or some 
other first-world power?
    Mr. Singh. You know, in my view--look, first, I completely 
agree, this is a very hard problem, and, you know, having been 
in the position of having had to make recommendations to a 
previous President on problems like this, I do not envy my 
colleagues in the administration now who have to do this. And 
obviously, committing any kind of military force is a 
tremendously weighty decision that requires a lot of careful 
thought.
    My own view is that, look, we should be aiming to end this 
conflict quickly, as quickly as possible, I think, because I 
think the longer it drags out the worse the consequences will 
become, and the harder it will be to salvage anything stable 
and peaceful afterward. You know, we cannot forget that Syria 
was known for being a more tolerant, cosmopolitan society 
before all this. And there is a danger of losing that. And that 
would be a real loss, I think, for this region and for us.
    So, I would say we should look at doing both sides of this, 
at seeing what we can do to degrade Assad's forces--and I do 
think that means addressing his air power and his missile 
forces, which is what he is increasingly relying upon--and that 
probably means some kind of airstrikes inside Syria. I also 
think we should be looking at bolstering the opposition forces, 
but obviously not just willy-nilly. Obviously, we want to be 
helping to build a security force, or security forces, which 
will be useful after Assad leaves, as well, to secure the 
country and ensure that all the minorities are protected and 
that any kind of sectarian bloodletting is avoided.
    Senator Johnson. OK. So, again, the concern, in terms of 
consequences, are not only just more bodies, but also spilling 
over into the greater Middle East and just having a far larger 
problem than what we have right now. Is that, basically, your 
concerns?
    Mr. Singh. That is absolutely right. I think you worry 
about the spillover into other regions. And obviously, we saw, 
yesterday, missiles being fired in northern Lebanon. You worry 
about the economic consequences. Some of these economies in the 
region are very fragile right now, like Jordan's.
    I think you also worry about the radicalization of the 
population in Syria, as well as the disintegration of Syria, 
and the attendant conflicts that could give rise to in the 
region.
    Senator Johnson. Well, a failed state is another real 
consequence, there, as well as now--we just heard reports of 
apparent chemical-weapons use, and that is another real 
problem, unless we bring this to a close sooner rather than 
later.
    You know, that is all I have. Thank you, Mr. Chairman.
    Thank you both.
    Senator Casey. Thank you, Senator Johnson.
    We are almost ready to wrap up, and we appreciate your 
testimony today, and your patience.
    Just one final question I had, on sanctions, if either of 
you would comment on the use of sanctions as one of the tools 
to create even more pressure on the regime.
    Mr. Singh. You know, we have obviously put a lot of 
sanctions in place against the Assad regime. I think that was 
the right thing to do, and I think those sanctions should be 
strengthened, to the extent we can. Obviously, we have already 
done quite a bit.
    I think, though, at this point, it looks like the Assad 
regime is fighting for its survival, essentially, that Assad is 
fighting for survival. So, more sanctions may not be sufficient 
to get him out, in a sense.
    I think what we can hope is that maybe those sanctions can 
convince people in his inner circle or on the fringes of his 
regime to switch sides. And it is possible that more sanctions 
could do that.
    Senator Casey. Mr. Malinowski.
    Mr. Malinowski. I agree. There are ways in which you can 
tighten the sanctions regime, and every little bit can help, 
but we should remember that the main supplier right now is 
Iran, and I am not sure if Iran is going to be too respectful 
of yet another U.N. Security Council resolution. And, as 
Michael said, this is a fight for survival right now. And I 
fear--I hope I am wrong--but I fear that, as long as he has the 
means to fight--and he does have a lot of means to fight within 
the arsenal that he has--the regime will continue to fight.
    There is no good outcome, here. There is a bad outcome, and 
there is a much worse outcome. And I think we need to have the 
discipline to try to work as hard as we can for that not-so-
awful outcome in the end. But without illusions.
    Senator Casey. Mr. Malinowski, thank you.
    Mr. Singh, when I was introducing you, I truncated the name 
of your organization, I said The--The Washington Institute for 
Near East Policy. I did not add that. And we are grateful for 
that.
    We will keep the record open until close of business on 
Friday for questions for the record, so both of you should 
expect some questions.
    We are grateful you are here today, and thanks for your 
presence and your testimony and answering some questions.
    We are adjourned.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Assistant Secretary Anne C. Richard to Questions Submitted 
                       by Senator Robert Menendez

    Question. We have long been aware that gender-based violence 
pervades the conflict in Syria.

  <bullet> Please outline the programs that the U.S. funds that work to 
        meet the needs--psychosocial and otherwise--of Syrian refugee 
        women who have been victims of, or witness to, GBV.
  <bullet> In a society where discussions of a sexual nature are taboo, 
        reaching out to GBV victims presents significant challenges, 
        exacerbated by any cultural disconnect between the refugees and 
        aid workers. What steps are being taken, or are under 
        consideration to be taken, to bridge this gap and provide care 
        in the most effective way?

    Answer. We are very concerned by reports of sexual and gender-based 
violence (GBV) in Syria, and are working closely with humanitarian 
partners to strengthen protection for vulnerable refugees, particularly 
women and girls there. Our humanitarian funding helps support programs 
to prevent and respond to GBV, including by providing assistance to GBV 
survivors and working with communities to prevent GBV.
    The United Nations High Commissioner for Refugees (UNHCR), which 
has received over $111 million in U.S. Government funding for its 
Syrian response thus far, provides GBV services and coordinates 
protection and GBV services provided by other U.N. agencies and 
implementing partners. UNHCR also works with host governments to 
develop capacity to help GBV survivors. The U.S. Government also 
supports NGO and International Organization (IO) partners to complement 
UNHCR's programming and activities, providing over $4 million to 
programs throughout the region to address GBV prevention and treatment.
    In Jordan, UNHCR works in partnership with the Family Protection 
Depart- 
ment (FPD), affiliated with the Jordanian Public Security Department 
(PSD), to strengthen its capacity to address GBV and provide 
psychosocial support services in the northern part of the country 
(Irbid, Ramtha, Mafraq, and Zaatari camp). PRM supplements UNHCR's 
efforts by supporting a program through a nongovernment organization 
(NGO) partner, which provides direct services for women and children in 
Ramtha, Mafraq, Irbid and the Zaatari refugee camp. This project will 
assist over 20,000 refugees through direct case management for 
survivors (including male and child survivors of GBV), individual 
therapy, group therapy, supplemental psychosocial activities, health 
services (including reproductive health and care for survivors of 
sexual assault), and referrals. Another U.S.-funded NGO program is 
working to educate the refugee population on GBV and to build the 
capacity of health workers to better identify and respond to GBV cases 
they encounter.
    In Lebanon, UNHCR, UNICEF, and other agencies are identifying gaps 
in GBV programs, providing technical training to Ministry of Social 
Affairs workers dealing with GBV survivors, and expanding referrals for 
survivors to receive specialized services. Recognizing that refugees in 
Lebanon are not in camps and are geographically spread across the 
country, the United States is complementing UNHCR's efforts by funding 
a nongovernment organization to map local agencies that specialize in 
assisting women and girl survivors of violence in the north and Bekaa 
and conducting intensive GBV capacity development training for two 
clinics so they can appropriately receive and manage GBV cases. Syrians 
also access gender-based violence services provided through a separate 
NGO program targeting primarily Iraqi refugees.
    In Turkey, the Government is the primary service provider to Syrian 
refugees through its Disaster and Emergency Planning Agency (AFAD) with 
UNHCR serving in an advisory capacity on camp services. The U.S. 
Government is funding the United Nations Population Fund (UNFPA) to 
support GBV prevention and response in refugee camps, as well as 
reproductive health services. We are also funding an NGO for primary 
health care, mental health, and psychosocial support in both urban and 
camp environments that includes medical treatment and counseling to GBV 
survivors.
    In Iraq, UNHCR is working with the refugee population to raise 
awareness of GBV and through its partners, is providing social 
counseling and legal support to survivors.
    In addition, the United States has provided funding to the United 
Nations Relief and Works Agency for Palestine Refugees in the Near East 
(UNRWA) to support both its humanitarian response to the Syrian 
conflict as well as the development of a gender-based violence referral 
system for Palestinian refugees, including those affected by the 
conflict. UNRWA is working to ensure GBV survivors have access to 
necessary support from UNRWA staff and external medical services and to 
increase community awareness of this issue. UNRWA has included 
Palestinian refugees from Syria that are displaced in Lebanon in its 
GBV programming and is currently developing a referral system for 
Palestinian refugees inside Syria, despite the operational challenges.
    Protection is at the heart of what PRM's work and we will continue 
to work with partners to monitor GBV risks in refugee host countries as 
the situation evolves.
    We work with our partners, tapping into their expertise, to 
determine the best way to deliver assistance in a culturally sensitive 
manner. For example, one of our NGO partners conducted assessments to 
inform their GBV programming. Although GBV is a sensitive issue, NGO 
representatives expressed surprise at how readily interviewees shared 
stories and fears. The assessments included not only female refugees 
but men and boys as well as service providers. The NGO noted that it 
was not easy to determine if participants were speaking about personal 
experiences, situations they witnessed or stories they heard. As a 
result, the NGO concluded that GBV is prevalent in the Syrian crisis; 
the NGO is continuing to develop relationships and gather data to 
understand the scope of the problem. During the assessments, the 
refugees indicated that they preferred to obtain GBV-related services 
in a location that would not identify them as a survivor. For this 
reason, the NGO has incorporated GBV programming into medical service 
provision.
    The U.S. Government partners incorporate protection, in this case 
GBV education and support to survivors, as a component of a wide range 
of assistance programming including health, education, psychosocial, 
economic, and water, sanitation and hygiene assistance. Programs are 
designed to protect those most at risk and prevent violence.

    Question. There are troubling news reports about the rise of 
survival sex utilized by refugees who are desperately low on resources.

  <bullet> What livelihoods programs is the United States supporting to 
        counter this trend and to offer alternatives to refugees who do 
        not have the means to fend for themselves, including and 
        especially those in the urban centers?
  <bullet> What monitoring and protection measures are our U.N. and NGO 
        partners taking to address concerns of sex trafficking, early 
        child marriage, and forced labor?

    Answer. As the Syrian crisis enters its third year, we are very 
concerned about reports of refugees who have exhausted their limited 
resources and are turning to dangerous coping mechanisms for survival. 
The constantly expanding scope of the crisis has kept attention on 
emergency relief, but we are cognizant of the need to support all 
refugees and work with our partners to develop a variety of responses 
to assist, in particular, urban refugees.
    The Syrian refugee populations in Lebanon and Egypt, as well as 75 
percent of the refugee population in Jordan and 50 percent of the 
refugee population in Turkey are residing outside camps in host 
communities. Many of these refugees are struggling to make ends meet. 
Urban refugees are more difficult to target with assistance and face 
additional challenges including high rents. UNHCR and their 
implementing partners are meeting refugee basic needs by providing 
food, supplies, and money for rent, as well as facilitating access to 
schools and health care. UNHCR is working to identify the most 
vulnerable to ensure their participation in these programs.
    UNHCR in Jordan counsels urban refugees with specific needs on the 
availability of social services including health, education, legal, and 
financial services provided by response partners. Vulnerable families 
or individuals are provided with urgent cash assistance directly by 
UNHCR or through referrals to an NGO partner. Partner organizations 
conduct home visits to identify and follow up on the most vulnerable 
including women at risk. In Lebanon, UNHCR and partners work to expand 
the provision of vocational training, remedial classes, and 
agriculture-based projects to provide alternatives and training to 
unemployed adults and out of school youth.
    One NGO partner recently began a program in northern Jordan to 
build beneficiaries' confidence and lower levels of economic stress and 
vulnerability to exploitation. The project selects 10 female 
``champions'' from the refugee populations in two Jordanian cities for 
an 8-day training on household finances, savings, existing humanitarian 
assistance programs, and rotational savings groups. These women will 
establish community groups of 20 additional women each. They will then 
share their knowledge by hosting discussion groups and setting up 
women's rotational savings groups in their communities for a total of 
200 women, which will in turn help participants enhance family savings.
    While these programs are a start, we recognize access to 
livelihoods and longer term self-sufficiency are areas that need 
additional focus in the near term. We will continue to work with our 
international organization and NGO partners to find ways to support 
urban refugees carry out livelihoods programs as part of the response 
to the larger emergency.
    We are deeply concerned about allegations of exploitation of Syrian 
refugees through early marriage, forced labor, and sex trafficking. 
Protection of vulnerable populations is a core component of the broader 
international humanitarian response to the crisis.
    UNHCR, UNICEF, the United Nations Population Fund (UNFPA), and 
other humanitarian partners are working in coordination with host 
governments to boost protection mechanisms for Syrian refugees. These 
include additional security screening of persons entering camps, 
increasing the number and reach of gender-based violence prevention and 
response sessions in camps and host communities, and a media campaign 
on the dangers of early marriage.
    In situations of early marriage, UNHCR undertakes a Best Interest 
Determination to review the situation on behalf of the minor. UNHCR 
works with local authorities and religious leaders to prevent early 
marriage. UNHCR will support refugees who need access to the Jordanian 
legal system.
    The U.S. Government is funding an NGO in Jordan to work with UNHCR 
to address protection concerns associated with the ``bailout'' system 
in Zaatari camp. Partners are working with the Government of Jordan to 
increase the protection of women and children by enhancing its capacity 
to monitor the bailout system and ensure that children are not bailed 
out to unrelated adults, nor single women to unrelated men. 
Additionally, this program will ensure that all persons bailed out have 
information on protection services available in urban areas.

    Question. The United States provides humanitarian assistance in 
coordination with international partners because it is the right thing 
to do, not to receive credit for its aid. At the same time, there are 
growing concerns that the Syrian people believe the United States has 
abandoned them because there are few, if any, signs to convey that the 
provision of aid is possible due in large part to U.S. contributions. 
The elements that complicate branding inside Syria do not seem to be 
present in the refugee camps and communities in the neighboring 
countries.

  <bullet> What efforts, if any, are being made to brand assistance to 
        Syrian refugees in an attempt to communicate U.S. support to 
        those that have escaped the violence?

    Answer. As the Syria crisis continues to deteriorate, it is 
critical that the Syrian people understand that the United States 
stands with them in this time of need. The United States has asked the 
international groups that we fund to ensure that U.S. contributions are 
publicly acknowledged in places where Syrian refugees and the local 
people can see it. International partner organizations include the U.S. 
flag and recognition of U.S. funding in all appropriate publications, 
printed descriptions, and project site locations. For example, in 
Jordan, UNHCR and UNICEF have displayed large placards bearing the U.S. 
flag emblem outside assistance distribution areas in Zaatari refugee 
camp, where UNHCR estimates 100,000 Syrian refugees are living. WFP 
includes the U.S. flag on posters where food vouchers are distributed 
and redeemed.
    Meanwhile, we are amplifying our message of support to the Syrian 
people through intense local and regional media engagement by U.S. 
ambassadors and other U.S. officials during regional visits; regular 
dialogue with Syrian diaspora groups in the United States; and a U.S. 
Government-wide push to communicate directly to the Syrian people.
    While receiving credit for our assistance is important, we must be 
careful not to jeopardize the lives of aid recipients and humanitarian 
workers delivering assistance if their association with the provision 
of U.S. funding puts them at further risk. In Lebanon, for example, 
several NGO partners have requested exceptions to not ``brand'' or 
label assistance with the U.S. flag to avoid sparking local tensions.
    We work with partners receiving U.S. funding to determine what 
level of recognition is appropriate in these situations and to 
implement acceptable alternatives. In Jordan, for example, one NGO 
partner does not use the flag logo, but instead uses ``Gift of the U.S. 
Government'' on its signs posted in program areas.
                                 ______
                                 

  Responses of Assistant Administrator Nancy E. Lindborg to Questions 
                  Submitted by Senator Robert Menendez

    Question. More than half of U.S. humanitarian assistance is helping 
those in need inside of Syria. Despite significant U.S. contributions 
thus far, there are growing concerns that the Syrian people believe 
they do not have our support, as there are few, if any, signs to convey 
that the provision of aid is possible due in large part to U.S. 
contributions. In your testimony, you spoke about ``amplifying our 
message of support'' and utilizing a broader communications strategy, 
given concerns that obviously branding U.S. aid could jeopardize the 
safety of aid workers and assistance recipients in such a volatile 
security environment.

  <bullet> Could you please outline specific measures that the U.S. 
        Government and its partners are taking to ``brand,'' as is most 
        feasible, the aid that reaches vulnerable populations inside 
        Syria?

    Answer. Wide-spread branding of U.S. Government assistance inside 
Syria is not an option at this time due to the ongoing violence and 
threats to aid workers. However, we are focused on ensuring the people 
of Syria understand that the American people are standing with them 
through a variety of channels. Our USAID team meets each week with the 
Syrian Opposition Coalition's Assistance Coordination Unit (ACU) and 
together reviews detailed reports of where U.S. Government-supported 
relief supplies and medical care are reaching, down to the district 
level. In opposition-held areas of northern Syria, where it is safe to 
do so, our implementing partners inform relief councils and local 
leaders that the assistance they are delivering is from the U.S. 
Government, and--when feasible--our partners are verbally telling aid 
recipients the aid is from the United States Government. USAID staff in 
Washington, DC, meet regularly with the Syrian diaspora so it can use 
its connections inside Syria to spread the message of our support that 
the United States is the leading donor and most proactive provider of 
humanitarian assistance. We continue to heavily engage with local, 
regional, and international media, both traditional and digital, to 
reiterate that U.S. Government humanitarian assistance is reaching a 
wide range of areas inside Syria.

    Question. We have long been aware that gender-based violence 
pervades the conflict in Syria.

  <bullet> Please outline the programs that the United States funds 
        that work to meet the needs----psychosocial and otherwise--of 
        Syrian women who have been victims of, or witness to, GBV.
  <bullet> In a society where discussions of a sexual nature are taboo, 
        reaching out to GBV victims presents significant challenges. 
        What steps are being taken, or are under consideration to be 
        taken, to provide care in the most effective way?

    Answer. To assist Syrians in working through trauma they have 
suffered or witnessed, USAID is providing psychosocial support inside 
and outside the country. All emergency response programs must ensure 
that emergency response staff and volunteers are prepared to address 
the specific protection needs of women and children, including those 
affected by gender-based violence. In addition, USAID's Office of U.S. 
Foreign Disaster Assistance (USAID/OFDA) and the Office of Food for 
Peace (USAID/FFP) require all emergency programs to use the principles 
of protection including consultation, participation, accessibility, and 
equity. This applies to all of our humanitarian sectors including 
health, food, relief supplies, and water and sanitation activities.
    These efforts include ensuring that:

      <all>  Health facilities have appropriate staff and equipment to 
            meet the needs of women and children. This includes 
            ensuring age and gender-specific medicines and medical 
            equipment, including for emergency reproductive health 
            services, are available as well as recruitment of female 
            health staff.
      <all>  Protection-specific training, including for the 
            identification, referral, and treatment of women and 
            children, is incorporated into capacity-building training 
            for local staff and volunteers.
      <all>  Relief commodity distributions include supplies specific 
            to meet the needs of women and children in hygiene and 
            household kits.
      <all>  Assistance distribution, in terms of site locations and 
            length of time waiting in line, does not add to the 
            vulnerability of women and children for whom assistance is 
            particularly targeted.

    In addition, USAID/OFDA has provided $1.2 million in support of 
stand-alone activities that aim to help both women and children. This 
funding supports psychosocial programs including women's support 
groups, child-friendly safe spaces, and youth empowerment groups and 
training. With U.S. Government support, UNICEF continues to provide 
psychosocial support to more than 32,000 children in Damascus, Rif 
Damascus, Homs, and Aleppo governorates, including in conflict 
locations. In 2013, UNICEF aims to reach 300,000 children throughout 
the country.
    U.S. Government-funded field hospitals are providing emergency care 
and emotional support for children, women, and men who have suffered 
sexual- and gender-based violence. The hours and days following rape 
are critical to treat injuries related to the assault, prevent 
infection, and receive the emotional support that will help survivors 
recover and resume a full life.
    Through the Special Program to Address the Needs of Survivors, 
USAID's Office of Democracy, Rights and Governance (USAID/DRG) has 
provided $1 million to the Center for Victims of Torture (CVT) to serve 
Syrian refugees who have been tortured or suffered the debilitating 
effects of war, including victims of sexual violence. CVT provides 
physical therapy and training for specialists with the goal of aiding 
physical and psychological recovery and reintegration into society.
    Additionally, USAID/DRG recently transferred $700,000 to the USAID/
Jordan mission for a program that will focus on vulnerable populations 
and develop an awareness campaign to reduce or prevent early marriage, 
human trafficking, child labor, and sexual- and gender-based violence 
among vulnerable populations within the Syrian refugee community.

                                  <all>

</pre></body></html>
